          PUBLIC
         RELEASE


       NATIONAL OCEANIC AND
 ATMOSPHERIC ADMINISTRATION

NWS’s Verification System for Severe and
       Hazardous Weather Forecasting
                   Needs Modernization

       Inspection Report No. IPE-9255 / January 1998




        Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                               Final Report
Office of Inspector General                                                                                                  IPE-9255

                                                TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                9

   I.       NWS Advances Associated With its Modernization Have Improved Weather
            Forecasting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   9

  II.       NWS Should Increase Quality Control to Reduce the Subjectivity of Verification
            Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

 III.       NWS Should Implement a Real-time Verification System and Reduce the Storm
            Data Backlog . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

 IV.        NWS Should Reassess Wind and Hail Warning Thresholds . . . . . . . . . . . . . . . . . . . 30

  V.        NWS Needs to Strengthen its Headquarters and Regional Office Oversight Roles
            and Responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

 VI.        NHC Should Expand its Verification Efforts and Test its Emergency Backup
            Preparedness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44

APPENDICES

            APPENDIX A: OIG Survey Questionnaire for Warning Coordination Meteorologists

            APPENDIX B: NWS Response to Report
U.S. Department of Commerce                                                                 Final Report
Office of Inspector General                                                                    IPE-9255

                                  EXECUTIVE SUMMARY

The National Weather Service (NWS) helps protect the nation’s people and property from the
dangerous effects of severe and hazardous weather by issuing severe weather and flood warnings,
public forecasts, and advisories. Because severe storms can injure so many people and cause
enormous economic damage and emotional distress, NWS’s ability to issue reliable, accurate, and
timely warnings and forecasts is crucial.

NWS determines how well it handles its forecasting and severe storm warnings through its
verification process - a quality control process that essentially matches warnings to actual weather
observations and compiles statistical results of forecasting performance. Specifically, severe
weather warnings are issued by NWS forecasters at the 115 Weather Forecast Offices (WFOs)
spread across the United States, Guam, and Puerto Rico. After issuing severe storm warnings,
the WFOs collect information about the actual weather to “verify” the accuracy of the warnings.
This verification creates a baseline of skill or accuracy against which later changes in forecast
procedures and products can be measured, and also helps NWS officials and staff (1) measure
NWS performance, (2) answer congressional, media, and other requests for information, (3)
publish a historical climatological record (Storm Data), (4) monitor trends, and (5) improve
forecaster performance.

The National Oceanic and Atmospheric Administration (NOAA), through NWS, is working to
significantly improve short-term warning and forecast products for thunderstorms, tornadoes,
hurricanes, floods, tsunamis, and geomagnetic storms. In pursuit of this goal, NWS has made
major advancements in the 1990s with new technology and modernized operations. Improved
radars, new computer systems, and other technological advances associated with NWS’s
modernization efforts have substantially improved its access to critical data and its ability to
forecast weather events. But modernization has also increased the workload for a decreasing
NWS workforce because more detailed data is used in forecasting and twice as many severe
thunderstorm and tornado warnings are being issued now as were in 1990. As a result, NWS’s
severe storm verification process - which has remained largely unchanged since its inception in
1979 - now needs updating to better reflect NWS’s modernized technology and field office
structure, staffing, and workload requirements.

In conducting this inspection, we focused on (1) assessing whether NWS’s severe storm
verification process and statistics are valid and reliable measures of NWS severe storm forecasting
performance and (2) determining whether NWS modernization efforts have improved the
accuracy of such forecasting. NWS routinely claims that its modernization efforts, and its
improved recruitment and training of a cadre of weather volunteers, have resulted in more
accurate forecasting of severe weather and improved verification scores. Based on our
evaluation, we agree that (1) NWS’s modernization efforts have resulted in more accurate
forecasting; (2) its verification statistics are vital indicators and, for the most part, valid measures

                                                   i
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

of performance; and (3) non-technological reasons, such as the more effective recruiting of
spotters, greater reliance on HAM radio networks, and improved coordination with emergency,
state, and local managers, have also resulted in better forecasting and verification. However, we
believe that the reliability of NWS’s verification statistics and process can be improved.

As a key part of our evaluation, we conducted a comprehensive survey that included (1) sending a
questionnaire to the warning coordination meteorologists (WCMs) at all forecast offices1 and
(2) subsequently interviewing a representative number of WCMs on their questionnaire comments
and related matters. WCMs are the primary liaisons between the WFOs and the external user
community. Our survey questionnaire - which we developed in consultation with senior and
cognizant NWS personnel - provided considerable insight into the NWS process and procedures
for verifying severe and hazardous weather. With a 91 percent response rate to our questionnaire,
we were able to benefit from an exceptionally broad range of experience and opinions for this part
of the review.

Most NWS forecasters we surveyed believe the verification process is important but think that too
much time is spent on verification, especially of small storms. With NWS offices continuing to be
downsized, some question the thousands of staff hours devoted to verification at a time when it is
increasingly difficult to perform the basic forecasting mission.

  ! The WCMs overwhelmingly see verification as important and beneficial, but they are
    concerned about the lack of time and staff for verification. The meteorologists stated that
    time spent obtaining weather event reports during and after storms for verification purposes
    detracts from performing basic forecasting, improving forecast skills, and receiving training.

  ! Although forecasters spend thousands of staff hours on verification, it is important to note
    that the total time reportedly spent on verification equals only about 20 full-time equivalent
    positions, a seemingly small number compared to the hundreds of forecasters.

  ! The majority of verification time is spent during the four- to six-month severe weather
    season when forecasters are most busy alerting the public to hazardous weather.

  ! Many hours are spent on verification during and immediately after storms, when the WFOs
    are busiest with observing and forecasting severe weather.




       1
         OIG Survey Questionnaire for Warning Coordination Meteorologists. See Appendix A
for survey questions and responses.

                                                ii
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

  ! Historically the verification program has lacked a timely feedback mechanism, and has been
    hampered by poor data input procedures, inadequate quality control, and antiquated data
    processing methods.

Based on the survey and other evaluation efforts, we have concluded that the verification of
severe and hazardous weather forecasting can be done more efficiently. We believe that with
certain key changes and improved internal controls, NWS can significantly enhance its verification
data credibility and dependability.

  ! NWS should increase quality control to reduce the subjectivity of verification
    information. We found that (1) WFO event information is susceptible to inaccuracies and
    uneven quality; (2) WFOs lack a standardized review process; (3) local storm reports are
    consistently not entered in the correct format (which reduces the quality and timely
    dissemination of data to NWS and outside users); (4) verification training for NWS
    employees and its SKYWARN volunteers is inadequate; and (5) NWS automated data
    checks of verification data are incomplete. (See page 12.)

  ! NWS should implement a real-time verification system and reduce the Storm Data
    backlog. NWS is not (1) providing rapid feedback to WFOs, (2) eliminating redundant
    keying-in of local storm reports and event information, or (3) reducing the large backlog of
    Storm Data publications. NWS needs to implement a modern, real-time verification and
    data collection system and database, and reduce the Storm Data backlog. (See page 25.)

  ! NWS should reassess wind and hail warning thresholds. The number of warnings that
    just meet the minimum threshold level for verification has increased significantly over the
    last five years. They represent a disproportionately high percentage of the NWS/WFO
    severe and hazardous weather verification workload. This increase is caused in large part by
    NWS’s new improved radars that detect precipitation and measure wind speed and direction
    with greater accuracy. As a result, NWS needs to thoroughly review its current warning
    thresholds and process to ascertain whether the number of marginally severe storm warnings
    issued can be reduced without any increased danger to public safety. (See page 30.)

  ! NWS needs to strengthen its headquarters and regional office oversight roles and
    responsibilities. NWS’s Office of Meteorology has not actively coordinated or addressed
    national, regional, and local verification issues. The Office of Meteorology should
    reestablish its National Verification Committee to evaluate all of its programs, revise its
    verification manual to include new verification techniques, and revise its National
    Verification Plan to update the requirements and goals of each verification program area.




                                                iii
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

     Moreover, the regional office role in the verification process should be strengthened to
     improve quality control and provide additional verification information. (See page 35.)

  ! The National Hurricane Center (NHC) should expand its verification efforts and test
    its emergency backup preparedness. NHC does not verify the accuracy of its forecasts to
    the actual hurricane or the wind data of each hurricane. NHC needs to (1) systematically
    verify and document the portion of each warning area that did or did not receive hurricane
    force winds and (2) systematically verify its hurricane model wind radii forecasts. In
    addition, it has been two years since NHC last tested its backup plan, which details how
    NHC would operate in an emergency. NHC should test it during the next off-season. (See
    page 39.)

On page 44, we offer a series of recommendations to address our concerns.

                                        --------------------

In response to our draft report, NOAA’s Acting Chief Financial Officer/Chief Administrative
Officer agreed with the report’s findings and recommendations. NOAA has several actions
underway to address our recommendations. The report includes comments from NOAA’s
December 1, 1997, response to our draft report. A full copy of that response is attached as
Appendix B.




                                                 iv
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

INTRODUCTION

  The Office of Inspector General conducted an inspection of the National Weather Service’s
  (NWS’s) severe storm verification program to assess whether NWS’s severe storm verification
  process and statistics are valid and reliable measures of NWS severe storm forecasting
  performance and whether NWS modernization efforts have improved the accuracy of such
  forecasting. Because severe storms can injure so many people and cause economic and
  emotional damage, NWS’s ability to issue reliable, accurate, and timely warnings and forecasts
  is important. NWS determines how well it does its forecasting through its verification process,
  which matches warnings to observations and compiles statistical results of forecasting
  performance. NWS’s severe storm verification information is gathered by the 115 Weather
  Forecast Offices (WFOs) across the country and then compiled by the Office of Meteorology
  (OM) in Silver Spring, Maryland. We conducted the inspection from November 15, 1996, to
  May 30, 1997, to determine whether verification operations - such as quality control,
  automation, and managerial oversight - were adequate.

  Inspections are special reviews the OIG undertakes to give agency managers timely
  information about operations, including current and foreseeable problems. By highlighting
  problems, the OIG hopes to help managers move quickly to address them and to avoid similar
  problems in the future. Inspections are also conducted to detect and prevent fraud, waste, and
  abuse and to encourage effective, efficient, and economical operations. This inspection was
  conducted in accordance with the Inspector General Act of 1978, as amended, and the Quality
  Standards for Inspections issued by the President's Council on Integrity and Efficiency. At the
  conclusion of the inspection, we discussed our observations and recommendations with NWS’s
  Assistant Administrator for Weather Services, Deputy Assistant Administrator for Operations,
  and Deputy Assistant Administrator for Modernization.

PURPOSE AND SCOPE

  The purpose of our inspection was to assess whether NWS’s severe storm verification process
  and statistics are valid, reliable measures of NWS severe storm forecasting performance. The
  scope of our inspection included (1) evaluating NWS’s verification program, including reports,
  databases, and quality control procedures; (2) evaluating verification data for statistical
  accuracy; (3) surveying all Warning Coordination Meteorologists (WCMs) about the
  verification process and accuracy of forecasting; (4) contacting 20 meteorologists-in-charge
  (MICs) and numerous WCMs and forecasters; and (5) contacting Department of Defense
  personnel, private weather service operators and professional meteorologists, and international
  weather organizations to compare and contrast NWS policies, practices, and procedures.




                                               1
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

  We examined background documentation relating to NWS’s mission, budget requirements,
  operating procedures, and management plans. We also examined specific documentation
  relating to NWS’s OM, regional offices, WFOs, and the National Hurricane Center (NHC).
  We examined OM’s Strategic Operating Plan and National Verification Plan; the regional
  offices’ analyses of storm data event reports, which ultimately become the final verification
  results published by NWS; WFO warning and event logs, WCM Handbook, and storm data
  event reports; Storm Data information for four WFOs for July 1996; and NHC track and
  intensity verification statistics, NHC’s backup plan, and NHC’s Draft 1997 Strategic Plan.

  We conducted most of our inspection work at six NWS sites: (1) NWS headquarters in Silver
  Spring, Maryland; (2) the Aviation Weather Center in Kansas City, Missouri; (3) the Storm
  Prediction Center in Norman, Oklahoma; (4) the National Hurricane Center in Miami, Florida;
  (5) the Eastern Region Headquarters in Bohemia, New York; and (6) the Central Region
  Headquarters in Kansas City, Missouri. We also visited seven WFOs in the eastern, central,
  and southern regions. WFO forecasters provided information on local operations and
  verification procedures, and WCMs and focal points provided answers to our OIG Verification
  Questionnaire. Our survey questionnaire - which we developed in consultation with senior and
  cognizant NWS personnel - provided a great deal of insight into the NWS process and
  procedures for verifying severe and hazardous weather. In addition, Air Force and Navy
  liaisons to the Department of Commerce provided information and statistics on Department of
  Defense verification programs, and Finnish and Australian experts provided background
  information on their verification programs.

BACKGROUND

  NWS is responsible for protecting the nation’s lives and property from severe storms by issuing
  severe weather and flood warnings, public forecasts, and advisories for the United States, its
  territories, adjacent waters, and ocean areas. With about 5,300 employees, NWS’s ability to
  forecast the weather affects not only the lives and property of every American but also our
  nation’s commercial interests. Catastrophic disasters resulting from tornadoes, hurricanes, and
  floods demonstrate the importance of providing timely weather forecasts and warnings. The
  United States reportedly experiences more severe local storms and flooding than any other
  nation. Eighty-five percent of all presidentially declared disasters result from severe weather
  events. In a typical year, the United States has about 10,000 violent thunderstorms, 5,000
  floods, 1,000 tornadoes, and several hurricanes.

  To improve the accuracy, timeliness, and efficiency of its weather forecasts and warnings, the
  National Oceanic and Atmospheric Administration, of which NWS is a part, has launched a
  major program to modernize NWS. NOAA’s Modernization and Associated Restructuring
  (MAR) program, estimated to cost over $4 billion, is intended to modernize NWS weather
  observing, information processing, and communication systems. Such new technologies as the

                                                2
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

  Advanced Weather Interactive Processing System (AWIPS), the Next Generation Weather
  Radar (NEXRAD), the Automated Surface Observing System (ASOS), and the next
  generation Geostationary Operational Environmental Satellites (GOES) are key MAR
  elements. MAR will require significant changes in the current weather service infrastructure
  and operations, including verification.

  Severe Local Storm Verification: What It Is & How It Is Done

  Verification is the process of assessing the quality of forecasts by matching warnings to actual
  event observations and compiling measures of performance. Figure 1 illustrates the warning
  and initial event gathering that takes place before and during a severe local storm. During bad
  weather, the WFOs are in contact with people trained in identifying severe weather (referred to
  as SKYWARN spotters), emergency managers, law enforcement agencies, utility companies,
  and fire department personnel. Cooperative observers are another important source of
  information. In under-populated rural areas, WFOs often identify people who are willing to be
  telephoned by the WFOs about the weather. The importance of obtaining this information is to
  match what is happening on the radar to what is happening on the ground. At a minimum, the
  time, location, and weather observation are written onto a log-in sheet.

                                               Figure 1



                    Calls made to &                         Calls typed into Local
                    from spotters,        Calls noted on    Storm Reports and
                    Emergency             log-in sheets     distributed by AFOS,
                    Managers, Police,                       hard copy is printed at
                    HAMS, other WFOs                        local printer


                                                  NOAA Weather Radio broadcast
                    Decision to issue a
                    WARNING is made
                                                  Emergency Alert System notified




Time permitting, the event information is typed into a local storm report (LSR) and electronically
sent to the Storm Prediction Center. WFOs print out a copy of LSRs for later use. Figure 2 is an
LSR for Russell County, Alabama, for June 15, 1996.




                                                      3
U.S. Department of Commerce                                                                                    Final Report
Office of Inspector General                                                                                       IPE-9255

                                                     Figure 2
                                        Local Storm Report

               TIME (CDT)     .....CITY.....               STATE     ...EVENT/REMARKS...
                              ....LOCATION....

               0600 PM        PHENIX CITY                    AL      .75 INCH HAIL
               6/15/96        RUSSELL                                HAIL SIZE MARBLE TO DIME

               0625 PM        SEALE                          AL      WIND DAMAGE.
               6/15/96        RUSSELL                                SEVERAL TREES DOWNED NEAR
                                                                     FIRE DEPARTMENT ...POWER
                                                                     POLE DOWNED...TREE DOWNED
                                                                     ON HOUSE NEAR POST
                                                                     OFFICE. GENERALLY
                                                                     OCCURRED 6:25 TO 6:30 PM




  After a decision is made to issue a warning (which can be at any time in the aforementioned
  process), the information is distributed to NOAA Weather Radio, AFOS, and the Emergency
  Alert System (EAS). Each WFO has the capability to record and broadcast NOAA Weather
  Radio information. EAS, formerly called the Emergency Broadcast System, is used by federal
  and local authorities to warn the public of an immediate threat to life and property. The system
  consists of all AM, FM, and network and cable television stations in a given area. The new
  system requires new equipment and offers information in both audio and digital format. The
  responsibility of the WFO is to alert, via EAS, the media and emergency managers, whose
  responsibility, in turn, is to notify the public of the warning.

  The majority of
  verification activities                                            Figure 3
  take place after the                                Verification Actions After the Event
  severe weather system                  OM electronically           OM sends
  has passed through the                 puts warnings into          weekly warning           Warnings
                                         the Warnings                reports to WFOs          Database
  WFO’s county warning                   Database                    for review
  area of responsibility.                                                                  VERIFICATION
  Figure 3 illustrates how                                                                   OM software
                                                                                           program matches
  the warning and the                                                                      the two databases
  event databases are                    WFOs compile official
                                         event reports using:        WFOs e-mail
                                                                     reports, and later
  compiled. For                          local storm report
                                                                     any revisions, to
                                                                                                Events
                                                                                               Database
                                         printouts, log-in sheets,
  warnings, the Office of                newspaper clippings         OM

  Meteorology                                                                             National Climatic
  electronically collects                                                                 Data Center publishes
                                                                                          Storm Data


                                                       4
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                             IPE-9255

  warnings from AFOS and electronically transfers them into a central database. OM sends to
  the WFOs a list of the warnings issued each week to review and correct. Compilation of the
  events database is much more time consuming. Within 24 hours after the event, WFOs make
  additional calls to spotters and cooperative observers in counties where warnings were issued
  and no reports were gathered. That information, in conjunction with LSR printouts, the log-in
  sheet of event reports received or made during the storm, radar images, and newspaper
  clippings are used to compile the official storm data event reports. The WCM, or a
  meteorologist who is designated as the focal point, enters the event information using the
  storm data software. The WFOs have 60 days to electronically submit the storm data file,
  containing severe weather events for one month, to OM. After receiving all WFO event
  reports, OM runs a computer program matching events to warnings and computes national and
  WFO verification statistics.

  Once all of the event information is compiled for a given month, it is electronically forwarded
  to Asheville, North Carolina, where the National Climatic Data Center, responsible for
  archiving weather data, publishes Storm Data, the official record of severe weather and
  unusual phenomena. Monthly issues of this report contain a chronological listing, by state, of
  occurrences of storms and unusual weather phenomena. Reports contain information on storm
  paths, deaths, injuries, and property damage. An "Outstanding Storms of the Month" section
  highlights severe weather events with photographs, illustrations, and narratives. The December
  issue includes annual tornado, lightning, flash flood, and tropical cyclone summaries.

  Recent Changes in NWS’s Severe Local Storm Verification

  In 1979, NWS formally began verifying severe thunderstorm and tornado warnings at 52
  Weather Service Forecast Offices (WSFOs) and about 198 Weather Service Offices (WSOs).
  The National Severe Storms Forecast Center (NSSFC) in Kansas City, Missouri, already
  conducting verification of severe weather watches, began conducting verification of warnings.
  Each WSFO sent warning and event information to NSSFC, which retyped the information
  into its verification program. In January 1996, OM replaced NSSFC as the verification focal
  point and 115 WFOs replaced the 52 WSFOs and 198 WSOs. The only change made by OM
  was to automate the process more - using a relational database software program and utilizing
  electronic mail.




                                               5
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

  Severe Local Storm Verification Statistics

  The verification process measures NWS’s forecasting performance, and it plays a crucial role
  in helping the agency improve its warning performance. The verification methods in use today
  build on the very early conceptual and methodological work first formulated more than a
  century ago. Verification then, as today, is defined by a “2 X 2" contingency table that refers
                                                                           to two possible
                                  Figure 4                                 forecasts and two
                                                                           possible observations.
                    2 X 2 Contingency Table                                Figure 4 shows the
                                                                           two possible forecasts
                                           Warning                         as a warning issued or
                                           YES      NO                     no warning issued, and
                                                                           the two possible
                                YES         X        Y                     observations as the
                   Event                                                   event occurs or does
                                NO          Z        W
                                                                           not occur. Most
                                                                           weather falls in the
                                                                           “W” box, where there
  is no severe weather event and no warning is issued. The optimum outcome, if a warning is
  issued or if severe weather is observed, is the “X” box.

  From this information, NWS computes the following performance measures and statistics.

  -    The False Alarm Ratio (FAR) is the fraction of all warnings (X + Z) that are unverified
       (Z). A high FAR indicates that warnings are being issued but no event is taking place.

       FAR =     Z
               (X+Z)

  -    Probability of Detection (POD) is the fraction of all events (X +Y) that are warned events
       (X). POD measures how well events are covered by warnings. To achieve a high POD,
       warnings could be issued to cover the possibility that an event will occur, but that would
       be at the expense of the FAR.

       POD =     X
               (X+Y)




                                                6
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

  -    Critical Success Index (CSI) is the fraction of all events plus the number of unverified
       warnings (X + Y + Z) that are warned events (X). Thus, the Critical Success Index is a
       function of POD and FAR.

       CSI =       X
               (X + Y + Z)

  -    Lead time is calculated by subtracting the time a warning was issued from the time an
       event reportedly occurs.

  What Is a Severe Local Storm?

  NWS has established thresholds for wind, wind damage, hail, and tornadoes to define severe
  local storms, and hence, what to issue warnings for. The thresholds are also used in the event
  collection process. Severe storm criteria are as follows:

       !   Thunderstorm wind gust of 50 knots (58 miles per hour) or greater.
       !   Thunderstorm wind damage that implies the occurrence of a severe thunderstorm.
       !   Hail equal to or greater than 3/4 inch in diameter.
       !   Tornado touching the ground and associated with a convective cloud.

  To obtain verification, at least one of the above severe storm criteria must be observed along
  with the county location of the storm.

  OIG Questionnaire Sent to Meteorologists Involved in Severe Storm Verification

  To better understand past and current verification issues and problems, we sent a questionnaire
  to the WCM at each of the 115 operating WFOs. We received 105 responses, for a 91 percent
  response rate. Our 44-question survey asked about WFO verification methodology and
  practices and the strengths and weaknesses of the verification process. The questionnaires
  were answered by one individual or a mix of: WCMs, MICs, focal points for the storm data
  event information software, and/or junior meteorologists. If more than one person at a WFO
  completed a questionnaire, the senior person was included in the summary statistics. See
  Appendix A for a copy of the questionnaire and a summary of the responses.




                                                7
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                                 IPE-9255

  National Hurricane Center Verification

  NHC, one of seven national centers operated by NWS, issues hurricane watches, warnings, and
  forecasts for hazardous tropical weather conditions, primarily tropical cyclones,2 for the
  Atlantic Ocean, Caribbean Sea, Gulf of Mexico, and the Eastern Pacific Ocean. Although
  NHC also prepares and distributes aviation, marine, and military advisories, providing
  hurricane information to the public, businesses, and federal, state, and local governments is its
  major responsibility. NHC coordinates with other NWS forecast offices; other federal, state,
  and local preparedness officials; and international weather service and government officials
  when tropical cyclones threaten the United States and foreign countries within its area of
  responsibility. NHC has an annual budget of about $2 million per year and 41 full-time
  employees.

  NHC verifies its two major forecasts (track and intensity) by comparing the actual
  post-analysis of all track and intensity data. NHC issues a 72-hour track and intensity forecast
  every six hours for all tropical cyclones in the north Atlantic and Eastern Pacific oceans. NHC
  measures forecast accuracy by identifying forecast errors in nautical miles for track forecasts
  and knots for intensity forecasts. Track forecast errors are determined as the distance between
  a forecast position and the actual observation for the same time. Intensity forecast errors are
  the difference between the forecast and actual wind speed for the same time.




       2
         A tropical cyclone is the general term for all circulating weather systems over tropical
waters including tropical depressions (38 mph winds or less), tropical storms (39 to 73 mph
winds), and hurricanes (74 mph winds or more).

                                                  8
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

                        OBSERVATIONS AND CONCLUSIONS


I.   NWS Advances Associated With its Modernization Have Improved Weather
     Forecasting

     NWS routinely claims that its modernization efforts, and its recruitment and training of a
     cadre of weather volunteers, have resulted in improved verification scores3 and more
     accurate forecasting of severe and hazardous weather.4 Based on our evaluation, we agree
     that: (A) NWS’s verification statistics are vital indicators and, for the most part, valid
     measures of performance and (B) NWS’s modernization, including technological and
     non-technological efforts, has resulted in more accurate forecasting.

     A. NWS’s verification statistics appear to be valid measures of performance

     NWS primarily uses its calculated POD, FAR, and the CSI for its statistical and performance
     measurement reporting. (See page 6.) Based on our evaluation, including our discussions
     with a wide range of interested and involved parties and the survey results, we have
     concluded that the statistics derived from NWS’s verification process appear to be valid
     measures of NWS’s performance. Hence, we concur with a June 1996 General Accounting
     Office (GAO) report5 that cites NWS’s short-term warning and forecast and the hurricane
     warning processes as good examples of results-oriented performance measures. GAO has
     found that successful agencies have performance measures that are tied to program goals and
     can demonstrate the degree to which the desired results were achieved. NWS’s mission
     depends on the quality and timeliness of observations, assessments, and information delivered
     for its warnings and forecasts. As a result, rather than simply count the number of forecasts
     it made, NWS determined that the most important business of its short-term warning and
     forecast weather services was to predict the time and location of weather events and to do so
     accurately.




       3
        Severe Local Storm Warning Verification for 1995, NOAA Technical Memorandum
SPC-1, June 1996.
       4
        National Weather Service Warning Performance Based on the WSR-88D, Paul D.
Polger, Barry S. Goldsmith, Richard C. Przywarty, and Joseph R. Bocchieri, February 1994.
       5
     Effectively Implementing the Government Performance and Results Act, June 1996,
GAO/GGD-96-118.

                                                9
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                                   IPE-9255

    NWS - wisely in our opinion - began to measure the extent to which it could increase the
    lead time it gave the public before severe events and the accuracy of its warnings. Ideally,
    for every severe weather event that occurs, a warning is in place, far enough in advance, for
    the public to take proper actions. A 100 percent probability of detection, the best possible
    outcome, means that for all severe events reported, a warning was in place. Lead time, the
    number of minutes between a warning and the event, is an appropriate measure of timeliness.
    A low false alarm rate (FAR) signifies that no “over-warning” is taking place. And, as
    previously mentioned, the critical success index (CSI) is a function of the POD and FAR, and
    the higher the number, the better the outcome.


    B. NWS’s modernization has resulted in more accurate forecasting

    NWS has made major advancements in the 1990s with new technology and modernized
    operations. Improved radars, new computer systems, and other technological advances
    associated with NWS’s modernization efforts have substantially improved its access to
    critical weather data and ability to forecast. Notwithstanding our belief that the statistics on
    POD, FAR, and CSI are valid measures, we initially questioned whether modernization
    efforts have resulted in more accurate forecasting. We subsequently determined that there
    has been a positive impact. Figure 5, for example, charts the POD, FAR, and CSI, for severe
    local storms from 1990 through 1996.


                                                   Figure 5
                                       Verification Statistics 1990 - 1996
                                100

                                80                                                 POD


                                60                                                 FAR
                      Percent




                                40                                                 CSI

                                                                                   radar
                                20

                                 0
                                      '90   '91   '92    '93    '94    '95   '96
                                                        Year



    The dashed line, labeled radar, shows the implementation of the 120 radars that are a key
    element of the modernized NWS field structure. From 1992 through 1995, when the bulk of
    the radars were being delivered and accepted, the POD improved, increasing from 72 to 76
    percent, while the FAR, for which an increase is undesirable, worsened, rising from 46 to 52

                                                          10
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

    percent. We believe that the increase in the FAR or over warning occurred because
    forecasters were experiencing a learning curve with the new radars. Because the new radars
    detect precipitation and measure wind speed and direction in greater detail, forecasters were
    issuing warnings to cover the possibility that a severe event would occur. From 1992 to
    1995, while the radars were being implemented, the number of warnings increased
    substantially. However, after four years, we believe that the forecasters’ learning curve is
    about over. To support this, the POD and FAR both improved in 1996. Overall, the POD
    from 1990 to 1996 has increased from 65 to 82 percent. More importantly, the 1996 FAR,
    while still high, is lower than the pre-modernization scores, indicating that technology has
    improved forecasting.

    While the emphasis of this discussion has been on NWS’s new radars, it should be noted that
    several non-technological pieces of the modernization also have influenced the verification
    scores. For example, the new WCM position, that includes verification as a primary
    responsibility, focuses the WFO on the importance of collecting verification information. In
    addition, a number of new initiatives have been implemented in the past three to five years,
    according to our survey. Over half of the WFOs stated that they have taken steps to recruit
    more spotters. Other actions mentioned include expanding or starting HAM radio spotter
    networks, aggressively calling spotters to obtain ground truth reports, and coordinating more
    with emergency managers.

    Conclusions

    Our review of the verification of severe and hazardous weather forecasting found that
    NWS’s verification statistics are valid measures of performance and that NWS’s
    modernization, including technological and non-technological efforts, has resulted in more
    accurate forecasting. However, while the performance measures demonstrate that NWS
    appears to be making significant progress in attaining its mission, a key challenge for NWS
    and NOAA, is to show the impact of future funding requests on performance goals. The
    Government Performance and Results Act of 1993 (GPRA) states that “congressional policy
    making, spending decisions and program oversight are seriously handicapped by insufficient
    attention to program performance and results.” As a GPRA pilot project, NOAA has
    attempted to demonstrate the impacts of different funding levels on its level of performance
    in its Fiscal Year 1998 budget request. However, we did not analyze this performance
    budget or determine if increased funding would result in higher levels of performance.




                                               11
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                                 IPE-9255

II. NWS Should Increase Quality Control to Reduce the Subjectivity of Verification
    Information

    NWS’s severe storm verification system has historically been hampered by poor data input
    procedures, inadequate quality control, antiquated data processing methods, and the lack of
    timely feedback to forecast offices. Our review identified four areas that have contributed to
    NWS event information being susceptible to uneven quality and inaccuracies: (A) lack of a
    standardized review process and data quality problems, (B) inadequate verification training of
    NWS employees and SKYWARN volunteers, (C) incomplete automated data checks, and
    (D) inadequate use of standardized local storm report software.

    A. Lack of a standardized review process and data quality problems

    Because NWS collects actual weather event information from a wide variety of sources,
    including the emergency managers in cities, NWS’s “spotters,” newspapers, and the general
    public, the quality of the information received can be as varied as the sources. Hence,
    information such as wind speed, time of event, and damage estimates vary widely, and
    experience has shown that it is highly subjective. In addition, the same people who issue
    warnings are also responsible for documenting that the severe weather actually occurred.
    Given the pressure to verify, this practice seems to have a built-in conflict of interest or at
    least gives the appearance of impropriety. However, most of the WCMs we interviewed
    stated that the same meteorologist does not “usually” issue and verify the same warning.
    Hence, they do not believe that this issue is a problem. But, here again, this situation
    highlights NWS’s vital need for a standardized review process.

    Our survey showed that while 50 percent of the WCMs review, to some degree, storm data
    event reports, warnings, log sheets, and Local Storm Reports, there is no standard process in
    place. Twenty-five percent of the offices make follow-up phone calls to spotters and other
    observers, and the other 25 percent take other steps or no steps at all. Although the WCM
    manual6 requires WCMs to analyze and synthesize weather event information and prepare the
    monthly storm data event report, it does not describe how monthly data should be reviewed.
    As a result, the WFOs have different collection methods. More importantly, some NWS
    personnel stated that WCMs are poorly trained in verification and have minimal resources for
    quality control and post-event surveys.




       6
        Warning Coordination Meteorologist: Job Aid, Revised August 1996.

                                                 12
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

    WFO Data Problems

    Although NWS stated that quality control procedures are used to ensure reliability,7 we
    determined that the WFOs have five serious data quality problems: (1) they do not record the
    source of all events, (2) their wind and hail information is imprecise, (3) their event
    information is misleading, (4) the event information is sometimes recorded incorrectly, and
    (5) meteorologists sometimes verify their “own” severe and hazardous weather warnings
    thereby creating a potential conflict of interest.

    1. WFOs do not record the source of all events

    Based on our survey, 94 percent of the WFOs keep a log-in sheet of all calls received from
    outside parties and made by forecasters. We discovered that the source of the calls is not
    necessarily recorded, thus preventing a reassessment of the event information at a later time.
    Representatives of some WFOs estimate that 10 to 50 percent of the incoming calls are
    missing source information, such as a name or spotter number.

    In reviewing copies of WFO log-in sheets, we also found that some user identifications and
    locations were missing. WFO MICs and WCMs stated that this occurs because forecasters
    do not have time during events to record all the necessary information. With 21,000 severe
    events in 1996, this clearly represents a serious quality control problem. To be effective, a
    system’s input controls must ensure that data origination, authorization, and compilation are
    adequately controlled. But, by not recording the source of calls, NWS cannot systematically
    confirm or otherwise validate the accuracy of the data that is the basis for its national
    verification scores.

    Although NWS’s 115 WFOs need flexibility in inputting and reviewing event data, NWS can
    strengthen data accuracy by establishing a more standardized verification process. After
    discussing this problem with numerous MICs, WCMs, and forecasters, we have concluded
    that NWS needs to increase data integrity by requiring each WFO to record the source of
    event information. Some WFOs use recorders attached to telephone lines or pink-colored
    log-in sheets placed at every telephone that record the original source and time of event
    information to facilitate this process.

    2. WFO wind and hail information is imprecise

    Storm Data, which is the official record of severe weather published by NWS, describes the
    type of severe event; the time; the event characteristics, such as wind speed and hail size;


       7
        National Weather Service, Draft FY 1997 Annual Operating Plan, October 1996.

                                                13
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

    and the damage estimates. Storm Data is used by researchers, insurance companies, and OM
    for research studies, processing insurance claims, and accumulating a climatological database.
    Forecasters compile storm data event information by analyzing reports received from
    personnel who have received spotter training, but just as often, from other non-trained
    individuals. Most individuals provide their judgment of severe events without instruments to
    measure wind speed and hail size. Because uncertainty exists about actual values assigned to
    events, such as maximum wind speed, the value of property damage, maximum hail size, and
    the time of an event, information is imprecise. NWS has acknowledged inconsistencies and
    uncertainties in the estimates received. As a result, the national database of wind speed and
    damage and hail lacks sufficient precision.

    For wind speed and damage, more than 75 percent8 of the events lack estimates. Over the
    last 10 years, 49,000 out of 69,000 wind events in Storm Data were labeled as “thunderstorm
    wind,” which can mean anything from a large tree limb down to major structural damage.
    This shows how imprecise and subjective the reporting of events is, especially when it comes
    from such a diverse reporting group, including trained SKYWARN spotters, NWS
    meteorologists, or other public officials on one end to members of the general public on the
    other. The remainder of wind events that are assigned values consist of measured and
    estimated gusts, but the database does not distinguish between them. More importantly,
    NWS personnel stated that some WFOs appear to have arbitrarily assigned wind gusts values
    (50 knots for minimum verification) to reports of wind damage, making it more difficult to
    distinguish between actual wind gusts and assumed gust speeds.

    After researching historical wind-related verification problems and speaking with WFO
    personnel, we believe that the severe event database should distinguish between measured
    and estimated wind gusts to increase objectivity and permit more rigorous analysis. Because
    the database does not distinguish between measured and estimated gusts, outside users
    perceive the estimated wind amounts as actual measures. While distinguishing between
    measured and estimated wind gusts, the severe event database should not force the WFOs to
    assign estimated gusts to all damage events. If a damage estimate is known, but wind speed
    is unknown, 50 knot winds should not be arbitrarily assigned. WFO personnel stated that the
    database lacks real wind values. They stated that although the database contains many
    estimates, once the estimates are in the database they become accepted as actual values.
    While OM now requires WFOs to provide a wind estimate and/or damage estimate, OM has
    not addressed the need to distinguish between actual and estimated in the database.



       8
        Severe Local Storm Climatology 1955-1995: Analysis of Reporting Trends and
Implications for NWS Operations, Steven J. Weiss and Michael D. Vescio, National Weather
Association, 21st Annual Meeting, December 1996.

                                               14
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

    For hail, determining the actual size can be highly subjective because most observations are
    not measured. For example, with the pressure to verify warnings, WFOs stated that they call
    various sources and ask whether hail is dime size (approximate size for verification).
    However, such questions by forecasters are leading and very subjective. As a result, this
    creates a level of imprecision similar to wind speed estimates. From our survey, the WFOs
    confirmed the level of imprecision of hail estimates, but more importantly, stated that the
    increased number of low hail events requires considerable verification time. Specifically, the
    number of low and intermediate hail events (1.75 inches and less) has increased, while large
    hail events have remained relatively even. With NWS’s new radars that detect smaller
    storms, warnings, and consequently events, have greatly increased. To reduce the
    subjectivity in hail size, we believe that (1) precise hail measurements should be taken and
    (2) the hail threshold needs to be evaluated (see page 30 for a discussion of the hail threshold
    issue).

    NWS’s SKYWARN program trains hundreds of weather spotters across the country to
    identify, record, and report the effects of severe thunderstorms and tornadoes based on the
    severe storm criteria. The WFOs train and retrain these spotters all year long. It is important
    that the WFOs continue to emphasize the importance of accurate data reports in spotter
    training. For example, WFOs should recommend that all trained spotters use measured - not
    estimated - hail reports to numerically verify warnings.

    The NWS Director’s Advisory Committee on Forecast Operations stated that spotters could
    be supplied with standardized calipers to provide accurate hail reports.9 Although NWS
    personnel and spotters questioned whether NWS had funding to provide inexpensive calipers,
    some spotters already use inexpensive calipers or rulers to obtain more accurate
    measurements. The Advisory Committee even suggested that rulers or calipers could be
    supplied in spotter sessions by corporate sponsors. The Committee also suggested that
    spotters could provide hail estimates to WFOs during hail storms and then provide more
    accurate measurements afterwards. We agree with both of the Committee’s
    recommendations. NWS should look into the merits and possibility of purchasing or
    obtaining inexpensive calipers or rulers to accurately measure hail size.

    3. WFO event information is misleading

    Because the WFOs issue warnings at precise times, determining the actual event time, or the
    best estimate, is very important. Verification of a warning and amount of lead time depend
    on when an event occurs. Information is misleading because the time of an event is often the
    most difficult aspect to verify.


       9
        Director’s Advisory Committee on Forecast Operations Draft 1997 Report, March 1997.

                                                15
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

    Warnings are verified by spotter and cooperative observer reports meeting the NWS warning
    criteria (see page 7) and occurring within the valid time and location of a warning. However,
    on a single event, a WFO may receive multiple reports with times varying by 30 minutes or
    more. This occurs since most damage reports are relayed after storms, and those making the
    reports are not always sure when the damage occurred. To be as accurate as possible,
    external sources such as emergency managers could review verification data; WCMs could
    spot check storm data event reports and “sign off” as completed before sending them to OM;
    WCMs and forecasters could compare the timing of storm reports with radar imagery,
    randomly reviewing reports from nearby counties for time continuity (cross-checking can
    reveal potential errors in report times); and WCMs and the Storm Data focal points could
    randomly review changes made to monthly storm data event reports.

    4. WFO event information is recorded incorrectly

    The most damaging if not the most common problem is event information that is recorded
    incorrectly. Before a WFO records an event time on a log-in sheet, changes can be made.
    NWS has no internal control or software that prevents the changing of event times. Many
    WFO personnel stated that they knew “other” WFOs who changed reported event times to
    fall within the warning time frame. When an event time falls on or after the warning time, the
    warning is verified. A “miss” occurs when the event time is before the warning time or if
    there’s no event. As a result, minutes make the difference between a verified and an
    unverified warning.

    WFO personnel, in discussions and questionnaires, stated that since the raw data is collected
    locally, the “fudging” of information to improve verification scores exists. For example, if a
    spotter calls in and reports hail at 4:10 P.M., and a warning is issued, perhaps based on that
    report, at 4:14 P.M., the event time could conceivably be altered to meet the warning time
    frame. Forecasters often write down event times on small pieces of paper during an event
    and record the information at a later time. Once information is formally recorded, an audit
    trail exists, and any change would be documented and have to be justified. It would be
    difficult to impossible to find examples of forecasters “fudging” data because, as we were
    told, “the pieces of paper are thrown away.” However, based on our interviews and
    discussions, we believe that some changing of data does exist.

    To begin correcting this problem, some WFOs, as stated on page 13, have started using
    recorders attached to telephone lines or pink-colored log-in sheets that record the original
    source and time of event information. This is a “best practice” that could be replicated at all
    WFOs. The Baltimore/Washington D.C. WFO has developed Local Storm Report software
    (see page 18) that can automatically record the source and time of event information. Being
    tested during our inspection, the software has the potential to be used at all WFOs. NWS
    needs to determine the status and potential of this software as soon as possible. To

                                                16
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

    determine whether the WFOs changed data once it is logged in, we compared the June 1996
    warnings and local storm reports to the June 1996 Storm Data reports for four WFOs. We
    were pleased to find that most warning and LSR times and events matched the Storm Data
    times and events. The remaining warning and LSR times and events differed as updated
    information became available.

    5. Meteorologists sometimes verify their own severe storm warnings, thereby creating a
       potential conflict of interest.

    Due to the relatively small number of staff at most WFOs and the methods they use to collect
    and verify information, many meteorologists issue and verify their own warnings. Obviously,
    this practice raises questions about a potential conflict of interest.

    In discussing this practice with many of the warning coordination meteorologists who
    oversee the process, we found that they were not concerned about a potential conflict of
                                                        interest because they believe that the
                           Figure 6                     same forecaster does not “usually” issue
                                                        and verify the same warning. Based on
                    WFO Questionnaire Results           our observations, we disagree with the
                                                        WCMs’ assessment. In our
      Extent the Same Meteorologist questionnaire, we asked each WFO the
        Warns & Collects Information                    extent to which the same meteorologist
                                                        issues, and then verifies, a given warning.
               Very great (3 )                          Figure 6 shows the response of the 105
                     Great (6 )                         WFOs that answered our survey.
              Moderate (25 )                            Thirty-three WFOs estimated that zero to
                                                        10 percent of the warnings are verified by
                   Some (38 )                           the meteorologist that issued them.
                                                        Thirty-eight WFOs estimated that 11 to
             Little or no (33 )                         20 percent are verified by the same
                                                        meteorologist. Twenty-five WFOs stated
                                                        that there was a moderate amount of
                                                        overlap, with 31 to 40 percent of the
    warnings being verified by the same meteorologist. And finally, nine WFOs reported that as
    many as 41 percent or more of their warnings are verified by the meteorologist that issued
    them.

    Clearly this data is at odds with the WCMs’ impression of the situation. When we asked the
    WCMs in the survey whether this represents a conflict of interest, they overwhelmingly said
    no. As previously mentioned, we did not find any evidence that information was intentionally
    being altered to verify warnings and improve scores. Nonetheless, there is, at a minimum, an

                                                17
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

    appearance of a conflict of interest that should be addressed. The solution to this problem,
    however, is neither simple nor straightforward.

    Ideally, an outside reviewer with no vested interest in the verification results would perform
    verification. But, realistically the added expense of implementing such an independent review
    system would be prohibitive. In addition, WFO personnel stated that the information from
    spotters and cooperative observers would continue to be gathered by forecasters during
    serious weather events to determine whether warnings need to be issued or extended. Thus,
    there was concern that it would be overly burdensome and confusing to the public if they had
    to call in or respond to both forecasters and independent verifiers at two telephone numbers
    regarding “ground truth.” Here we agree with the WCMs that we spoke to who expressed
    concerns that this could disrupt WFO operations. Given staffing realities and the forecaster’s
    potential conflict of interest of gathering information for dual purposes - issuing warnings
    and verifying events - we suggest that NWS institute less labor intensive and less
    operationally disruptive controls to reduce the likelihood of an actual conflict of interest.

    A better solution would be to match and flag instances where the same forecaster issues and
    verifies a warning. One WFO, for example, is developing software that could identify cases
    where the same forecaster issued and verified a warning, thus flagging warnings that would
    be subject to a random third party verification check. The advantage of this software is that
    the match is done at the local level and flags would be raised early in the process. An
    intermediate solution, until such software is in place, is to add the name of the forecaster who
    collects event information to the storm data event database. Given that the warning
    forecaster is currently in the warning database file, when the two databases are matched by
    OM for verification purposes, the degree to which the same meteorologist is issuing and
    verifying the same warnings could be monitored and third party verification checks could be
    initiated.

    Conclusions

    NWS’s 1997 Annual Plan states that “Quality control procedures are followed to ensure the
    highest possible reliability of the gathered data.” Based on our observations, this is
    misleading. The Government Performance and Results Act of 1993, Public Law 103-62, will
    require NWS to document how its verification measures are derived and describe the means
    used to “verify and validate” its verification measures. But NWS lacks a standardized review
    process, and currently cannot ensure that it achieves the highest quality control. As a result,
    we believe that NWS needs to (1) move as quickly as possible to put in place quality control
    procedures to ensure the highest possible reliability of the gathered data and (2) describe in
    any future plan, testimony, or budget document how its verification measures are derived and
    their quality control limitations.


                                                18
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

    Verification quality control should be standardized by developing NWS guidelines at the
    national level and implementing them throughout the network. Specifically, we recommend
    that NWS reestablish its National Verification Committee (NVC), which oversaw verification
    roles and responsibilities in the 1980s (see page 35). NVC and the regional offices should
    then implement a standardized review process to ensure data integrity by:

       ! recording the source of event information,
       ! distinguishing between measured and estimated wind gusts,
       ! periodically sending verification data to external sources for review,
       ! spot-checking monthly data and “signing off” as completed before sending it to OM,
       ! comparing the time estimates of storm reports with radar imagery,
       ! randomly reviewing reports from nearby counties for time continuity,
       ! randomly reviewing changes made to monthly storm data event reports,
       ! using only measured hail diameters - not estimates - to numerically verify warnings,
       ! adding the name of the forecaster who collects event information to the storm data
         event database,
       ! developing software to flag warnings that are issued and verified by the same
         forecaster, and
       ! instituting third party reviews or verification checks when the same person has issued
         and verified a warning.

                                        --------------------

    NWS agreed with most of our recommendations aimed at implementing a standardized
    review process. However, NWS opposes the addition of the name of the forecaster who
    collects event information to the event database and the development of software to prevent
    the same forecaster from issuing and verifying a warning. NWS believes that WFO staffing is
    too strained during severe events to prevent the same forecaster from issuing and verifying a
    warning. Although we agree that WFO staffing can become strained during severe events,
    we believe that NWS should still add the name of the forecaster who collects event
    information to the event database and develop software to flag when the same forecaster
    issues and verifies the same warning. By having this information and software available, the
    WFOs can, when feasible, better monitor who issues and verifies warnings and institute third
    party reviews or verification checks.




                                                19
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                             IPE-9255

    B.    Inadequate verification training

    Internal verification training for WCMs and forecasters and external training for spotters
    should improve data quality. Both groups need to receive current training on verification
    techniques and severe weather identification and reporting. Consequently, we included
    training questions in our survey and held numerous conversations with NWS personnel to
    assess the adequacy of training. Our survey determined that alternative training mechanisms
    were needed and specific data accuracy measures should be emphasized in spotter training.

    WCMs receive some forecasting training soon after being selected, but training on
    verification event-gathering and measurement techniques, verification software, the type and
    severity of events, and on-site surveys has been mostly on-the-job. In response to our
    questionnaire, 33 percent of the WCMs listed weaknesses in the verification training they
    received, including: (1) too much emphasis on Eastern and Mid-Plains states weather rather
    than the more common forms of storms found throughout the country, (2) not enough
    instruction on how to write storm data event reports, and (3) inadequate guidance on how
    spotters and others should gather and report event information. Of the remaining 67 percent,
    19 percent could not remember the verification part of the WCM course, 15 percent liked the
    training, and 33 percent either did not receive WCM training or did not answer the question.

    More importantly, over half of the WCMs stated that additional verification training was
    needed, preferring on-site materials, such as CD-ROMs and videos, and discussions at the
    annual WCM conferences. Because of time constraints and limited travel funds, they
    believed that formal classroom training is not practical. The regional WCMs, who oversee
    and coordinate the verification activities in each region, suggested that region-specific
    training should be provided through CD-ROMs, videos, and discussions at the annual WCM
    meetings. NWS should provide WCMs with the alternative training mechanisms discussed
    above to promote data quality.

    C.    Incomplete automated data checks and data recording

    NWS national verification of severe local storm warnings was done at the National Severe
    Storms Forecast Center in Kansas City, Missouri, before OM took over this responsibility in
    January 1996. NSSFC received all warnings and event information from the field offices,
    manually retyping paper information and performing no data edit checks. However, to
    improve quality control, OM changed the severe storm verification system in 1996 from a
    mainframe to a personal computer, implementing electronic transfer of warning and event
    information, thereby reducing the number of errors made from retyping. OM also reduced
    the number of warnings and event information lost through paper transmission.



                                              20
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                                 IPE-9255

    OM now performs some automated data edit checks, which continually enhance data quality
    by detecting errors caused by omissions, invalid entries, and other inaccuracies. For example,
    data checks ensure that data fields such as hail size and wind speed fall within assigned
    parameters. Even with OM’s current data checks, we determined that there are still two data
    quality problems with the current process: (1) complete automated data checks have not been
    established and (2) changes to monthly storm data event reports are not recorded.

    1. Complete automated data checks have not been established

    Although OM has established some PC-based data checks, additional data checks are needed.
    OM’s PC-based programs use current database management software that allows on-line,
    immediate data checks. OM established data checks in early 1997 for hail size, wind speed,
    date of event, and location of event. However, the severe weather event database has many
    other data fields that need quality control. Figure 7 outlines some potential data fields and
    data checks that can be performed.

    OM should implement additional automated tests of national verification information. OM
    plans to establish these and other data checks when contractor funds are available. However,
    even additional automated data checks cannot prevent all of the data input problems cited
    earlier. When completed, current and historical data fields can be edited for improved quality
    control. NWS has years of severe weather data that has not been subjected to automated
    data checks. Although it is unlikely that edit changes from historical data would change the
    overall statistics, additional data checks will correct gross errors and improve quality control.
    For example, in Storm Data recently, a damage level of $50 million, instead of $500,000, was
    recorded.




                                                21
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                                  IPE-9255

                                                Figure 7

                              Office of Meteorology Potential Data Checks

            Field         Test
            Year          Check for years outside the boundaries (e.g., 1968 instead of
                          1986).
            Month         Check for values <1 or >12.
            Day           Check for values <1 or >31.
            Time          Check for values <0 or >2359.
            WFO           Check for names that don’t match a fixed set.
            Event         Check for nonexistent event types and ensure that type and
                          magnitude are compatible (e.g., hail must be associated with
                          realistic hail size and not wind speed by mistake).
            Latitude      All events must have a latitude and longitude.
            Longitude
            Deaths        Check for unusual numbers. Compare with severity of the event.
            Injuries      Check for unusual numbers.
            Damage        Check for unusual numbers.
            Warning       Check that warning issue time is not after or the same as the
            Issue Time    warning expiration time.




    2. Changes to monthly storm data event reports are not recorded

    After the WFOs submit their monthly event data to OM, OM compiles the information and
    then resubmits it back to each WFO for review. The WFOs may have received revised or
    additional information or initially sent incorrect information. For example, a WFO may have
    received information to verify an event, change an event time, or change a damage or hail


                                               22
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

    size estimate. Documenting changes to any database maintains quality control. However,
    OM does not keep a historical record of monthly changes to storm data event reports, which
    would help ensure that changes to data fields are properly authorized and documented.

    After receiving monthly event data in a temporary file, OM transfers the data to the
    appropriate WFO file, performs some data checks, and compiles national statistics. OM
    returns monthly data to the WFOs for review. If WFOs have changes to their monthly storm
    data event reports, they are sent back to the temporary file. However, OM takes the
    temporary file and replaces existing data fields with the new data, without recording what
    changes have been made in the original data. Not recording data changes is a serious internal
    control weakness.

    Although OM personnel believe that changes in monthly data are minimal, they have no data
    to support their claim. Even if monthly changes are minimal, OM should document WFO
    changes to event times, event size (for hail), event speed (for wind), and damage estimates to
    record possible trends, determine if changes are increasing, and document whether changes
    are authorized by the WCMs. In addition, OM should create a new field in the database that
    allows WFOs to identify the source of information (e.g., trained spotter, emergency
    personnel, media, law enforcement, general public). This will document the source and
    reliability of information.

    D.        Inadequate use of local storm report software

    Although Local Storm Reports (LSRs) are draft unofficial weather reports, they contain
    important and timely meteorological information used by other WFOs, the media, and private
    meteorologists. LSRs contain preliminary event information, specifically the time, county,
    state, and type and size of event. They are prepared by NWS forecasters from information
    received from spotters, power companies, county managers, and other sources. Because
    LSRs are a major source of verification information, LSR quality is essential.

    In 1994, NWS established a standardized LSR format10 to replace different LSR software
    packages used by WFOs. This format, PC-LOGIT, developed by the Storm Prediction
    Center (SPC), electronically decodes LSRs sent in by the WFOs. When PC-LOGIT is used,
    vital storm information is rapidly disseminated to other WFOs, SPC, regional offices, media,
    and others. However, because the WFOs do not consistently use PC-LOGIT to input LSRs,
    quality is reduced and timely storm information to NWS and outside users is lost. NWS
    personnel estimated that about one-third to one-half of the offices use non-standard software
    to enter LSR information.


         10
          National Weather Service Operations Manual, Chapter 40, March 1994.

                                                23
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

    Upon contacting NWS personnel to determine why PC-LOGIT was not being used by all
    offices, we learned that the SPC-developed initial version of PC-LOGIT contained several
    problems. For example, it was not WINDOWS-based, and its database was not compatible
    with the storm data event database. Specifically, there was a line capacity problem, certain
    towns were not included in the database, and the program crashed if too many reports were
    entered. After additional work in 1995, SPC personnel completed an updated version of
    PC-LOGIT and sent it to select WFOs for testing. In February 1996, the updated version
    was released to all WFOs, after SPC made other WFO recommended changes. However,
    about 30 to 50 percent of the WFOs still use different formatting software in place of
    PC-LOGIT to transmit LSRs. In late 1996, SPC was moved to Norman, Oklahoma, where
    PC-LOGIT changes have been overseen. SPC personnel stated that because some WFOs
    have different software, they have fought proper formatting techniques that would increase
    electronic decoding at SPC. SPC and some WFOs both stated that PC-LOGIT needs better
    marketing so that NWS uses one uniform formatting software package and database.

    Because some WFOs do not use PC-LOGIT, SPC must manually reformat data. SPC’s
    initial policy was to manually enter significant reports that were not properly formatted.
    However, because this formatting is labor intensive, SPC now limits its time spent
    reformatting reports. As a result, data errors occur and the SPC database is incomplete.
    More importantly, SPC prepares its nationwide LSR report without these office reports. The
    hourly, nationwide report gets sent to the WFOs, emergency managers, and private
    meteorologists. By not having all office reports, some WFOs are not fully informed about
    approaching weather, compromising their warning decision-making. SPC plans to
    continually upgrade the software and improve the compatibility with other programs, such as
    the storm data event software. While software changes are made during the next year, the
    regional offices should ensure that PC-LOGIT is received and used by all field offices,
    enabling all WFOs to receive SPC weather reports that affect their office.

                                       --------------------

    NWS agreed with our recommendations to (1) determine the status of local storm report
    software being developed at the Baltimore/Washington D.C. WFO, (2) describe the means
    used to verify and validate its verification measures, (3) provide WCMs with alternative
    training mechanisms, (4) emphasize the importance of data accuracy in spotter training,
    (5) implement specific automated tests of national verification information, (6) document
    changes made to monthly storm data reports, (7) create a new field in the event database, and
    (8) require that PC-LOGIT be used by all WFOs.




                                               24
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                                 IPE-9255

III. NWS Should Implement a Real-time Verification System and Reduce the Storm
     Data Backlog

    Within NOAA, verification information has a number of applications and uses (see Figure 8).
    At NWS headquarters, verification statistics are used to evaluate the agency’s overall
    performance. The information is also used to respond to geographically related questions
    about weather raised by the Congress, the media, other Federal agencies, and insurance
    representatives, to name a few. The event information ultimately becomes the official record
                                                                     of severe and hazardous
                               Figure 8                              weather phenomena that
                                                                     researchers use for analyzing
                                                                     trends. Regional NWS
                                                                     offices primarily use the
                                                                     statistics to monitor WFO
                                                  HQ                 trends and performance.
                                                  Priorities         Finally, at the WFOs,
                                                                     verification statistics are used
                                                                     to appraise office
                                                   RO                performance and assess
                                                  Priorities
                                                                     forecaster biases to under- or
                                                                     over-forecast in certain
                                                                     situations. Verification data,
                                                   WFO               however, in accordance with
                                                   Priorities
                                                                     a NOAA agreement with the


    employees union, is not to be used to prepare individual forecasters’ personal performance
    ratings.

    Our inspection identified two problems with NWS’s verification process that have hindered
    the agency’s ability to use the verification information most effectively or to improve or
    revamp the verification process: (A) verification requires redundant keying-in of LSRs and
    storm data event information and does not provide rapid feedback to WFOs and
    (B) publication of Storm Data is not timely.




                                                 25
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

    A.        Verification requires redundant keying-in of storm data event information and
              does not provide rapid feedback to WFOs

    NWS’s National Verification Plan identified six specific goals for the verification program.11
    We believe that the two key goals, “minimize workload, particularly at the local level” and
    “provide rapid feedback to forecasters and local management,” have not been realized. To
    achieve the greatest benefit, the feedback should be received when the event is still fresh in
    the individual’s mind.

    Currently, during severe weather, WFOs enter local storm reports into the AFOS system.
    The purpose of LSRs is to alert SPC and neighboring WFOs of the characteristics of local
    weather. The weather reports are collected from people calling in and the WFO calling
    spotters and contacts for reports. LSRs are considered draft, unofficial reports. For
    verification purposes, 24 hours to two months after the severe weather event, paper printouts
    of the LSRs are used in conjunction with follow-up phone call log-in sheets and newspaper
    clippings, to compile the official storm report. Thus, to prepare the official storm data event
    reports, LSRs are entered into the storm data software program. We did not determine the
    full magnitude of the double entry of the same data, but it is significant. For example, we
    obtained LSRs and the storm data information for one office. Forty-four percent of the
    storm data event reports were identical to the LSRs, which means that changes have not been
    made.

    OM has the responsibility to match the warning database to the event database. The WFOs
    have 60 days from the end of the month to send, by electronic mail, the storm data
    information to OM. Many WFOs send their reports in late. OM waits until all storm data
    reports are received because the matching process between the two databases is time
    consuming. As a result, several months elapse before the WFOs obtain verification feedback
    about their forecasting performance.

    OM has made software improvements by automating the collection and compilation of storm
    data information. The current system takes the WFO storm data event file and electronically
    inserts it into the central event database. Previously, WFO event information was retyped
    into the central database. The automated process reduces the workload where the
    information is centrally compiled, but does not affect the WFO workload. WFO’s must
    continue to type identical information into LSRs and the storm data event reports.




         11
        Report of the National Verification Task Team: National Verification Plan, National
Weather Service, June 1982.

                                                26
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

    Forecasters need to receive timely feedback on the accuracy of their severe storm warnings in
    order to help improve skills. They are primarily interested in evaluating their individual
    forecasting performance, identifying the strengths and weaknesses of their forecasts, and
    identifying any consistent bias to under- or over-forecast in certain weather situations.12 An
    operational verification system should provide near-real-time access to forecasts and
    observations, so forecasters can quickly see where their warnings are on target and where
    they have been less accurate. This more instant feedback helps the forecaster improve his
    performance. Under the current process, forecasters cannot automatically compare areas
    warned with LSRs for timely visual feedback and preliminary verification. Entering LSRs,
    obtaining preliminary verification, submitting storm data event reports, and receiving official
    verification information are all separate functions. Forecasters obtain post-storm verification
    if they manually compare verifying observations to warnings issued. However, this is a time-
    consuming process for busy forecasters.

    NOAA’s Space Environment Laboratory (SEL) implemented a verification system with
    near-real-time access to its space forecasts and observations.13 Another example of a real-
    time verification system is the Finnish Meteorological Institute’s computer program that is
    used for its daily forecasts. The goal of the Finnish system is to give all duty forecasters
    access to a verification database via a user-friendly, graphical interface.14 Neither SEL nor
    the Finnish system are directly transferable to the severe storm verification process, which
    relies on human reporting, not instruments, for corroboration.

    However, NOAA has done considerable work, since 1993, preparing the requirements for a
    new verification process in AWIPS.15 The AWIPS requirements specified WFO local
    verification capability rather than the current centralized verification. Forecasters would
    create, maintain, and archive separate warning and event logs to reduce the keying-in of
    information and provide rapid feedback. We found several cases where WFOs, with their
    limited resources, are developing software to eliminate the redundant entry of LSRs into the

       12
        An Operational Forecast Verification System at the Space Environment Laboratory,
Kent A. Doggett, NOAA Space Environment Laboratory, March 1997.
       13
        An Operational Forecast Verification System at the Space Environment Laboratory,
March 1997.
       14
        Real-Time Verification of Operational Weather Forecasts at the Finnish
Meteorological Institute, Perti Nurmi, The Evaluation of Space Weather Forecasts: Proceedings
of a Workshop at Boulder, CO., June 1996.
       15
        Technique Specification Package 89-08-R1, National Weather Service, Office of
Systems Development, April 1, 1993.

                                                27
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

    storm data software and will provide preliminary verification scores. Although WFOs stated
    that they had waited many years for AWIPS, they have begun to develop their own in-house
    applications because of the AWIPS development delays.

    We believe NWS needs to implement an integrated, real-time verification and data collection
    system and database as soon as possible. The system should accept LSRs, provide the
    foundation for storm data reports, and provide quick initial verification feedback to
    forecasters. In order to accomplish this, NWS will need to develop software for inputting
    LSRs that is compatible with its storm data software (precluding the need for double entry of
    event information). NWS should use the WFO development efforts mentioned above to
    determine which system, or combination of prototype systems, best meets current
    requirements.


    B.    Publication of the official Storm Data product is not timely

    Event information collected during the verification process becomes the official record of
    severe weather events and unusual phenomena. By the time NWS publishes Storm Data, the
    official record, the information is nine months old. For example, Storm Data for October
    1996 was printed in mid-July 1997.

    The Storm Data backlog has been steadily increasing since January 1996 for three reasons.
    First, when the national verification program operations moved from NSSFC to OM in
    January 1996, there was a publication delay. Second, the transition to new verification
    software caused a publication backlog. Third, some WFOs are late with their data
    submissions, and OM waits until all, or a majority of, reports are in before running the
    software program that matches the warnings and events databases.

    We believe that with the transition from NSSFC to OM completed, the backlog should be
    reduced. In fact, between the new software capability and the OM staff’s resourcefulness,
    OM has expedited the process by pre-formatting event information and sending a print-ready
    file to NCDC. However, late data submissions by the WFOs continue to be a problem. We
    do not believe the WFOs need more time, as they already have 60 days from the last day of
    the month to submit monthly event data. In our survey, 79 percent of the WFOs stated that
    this was enough time. Of the 17 percent (four percent stated that it depends on their current
    workload) that said it was not enough time, most stated that up to 90 days are needed. We
    believe 60 days is enough time, although exceptions could be made during the busiest of the
    severe weather months.




                                               28
U.S. Department of Commerce                                                         Final Report
Office of Inspector General                                                            IPE-9255

    NWS needs to reduce its backlog of Storm Data and ensure that the publications are issued
    within 90 days. NWS guidelines (Chapter C-42) should be revised to provide for a “cutoff
    date” for WFO submission of data. After the cutoff date, OM should send the reports to the
    NCDC, with outstanding reports labeled “not received.” Proper action, such as a
    memorandum to the applicable regional WCM, should be taken against offices that do not
    submit their data in a timely fashion. An addendum with the missing data from WFOs who
    missed the prior publication deadline could be added to the next month’s publication.

                                      --------------------

    NWS agreed that an integrated, real-time verification and data collection system and
    database is needed. However, NWS believes that it should be designed to operate within the
    AWIPS environment. Until AWIPS is implemented, NWS believes that PC-LOGIT and the
    storm data software may provide an interim solution. In addition, NWS reported that it has
    already taken steps to reduce the backlog of monthly Storm Data, and hopes to eliminate it
    by the end of 1997.




                                              29
U.S. Department of Commerce                                                                                Final Report
Office of Inspector General                                                                                   IPE-9255

IV. NWS Should Reassess Wind and Hail Warning Thresholds

    The number of severe weather warnings has more than doubled from 1990 to 1996 (see
    Figure 9).16 Most of the increase in warnings involves the less severe storms. While
    advances in technology and ground sitings have lead to the increase in the number of
    warnings, some NWS personnel and the media feel that the thresholds are too low, and that
    the events associated with less intense storms pose little risk to the public.

                                             Figure 9                         NWS’s multi billion-dollar
                                                                              modernization effort has equipped the
                                 Severe Local Storm Warnings                  WFOs with more powerful satellites,
                                                 1990 - 1996                  more sophisticated radars, and better
                             28000                                            computer models. The Doppler radars
                             26000                                            detect precipitation and measure wind
        Number of Warnings




                             24000                                            speed and direction in greater detail.
                             22000                                            Meteorologists attribute the increased
                             20000                                            accuracy and speed in prediction to the
                             18000                                            modernization.17 However, another
                             16000                                            result of the new technologies and
                             14000                                            increased geographical radar coverage
                             12000                                            has been the large increase in the
                                     '90   '91   '92    '93 '94   '95   '96
                                                       Year                   number of warnings, which have more
                                                                              than doubled, from 13,696 in 1990 to
                                                                              27,838 in 1996.

    Impact of Increased Warnings

    The NWS Director’s Advisory Committee on Forecast Operations (DACFO), originally
    formed to uncover technical field problems and issues related to field operations, has
    assumed more modernization responsibilities. DACFO is composed of field forecasters and
    issues an annual report with recommendations. While the purpose of issuing warnings is to
    both save lives and protect property, DACFO has long believed that the thresholds for severe
    local storms are too low. The combination of low thresholds and better technology has
    resulted in the forecasters having more information and issuing more warnings than ever
    before.


       16
         1990-95 figures from NOAA Technical Memorandum NWS SPC-1; 1996 figures
provided by OM.
       17
                 “Ahead of the Weather,” William J. Cook, US News & World Report, April 29, 1996.

                                                                        30
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                                 IPE-9255

    While the public may benefit some from more storm warnings, the increasing volume of
    severe thunderstorm and tornado warnings has had three major negative impacts. First,
    issuing too many warnings taxes the media’s ability to disseminate timely and effective
    warnings through the Emergency Alert System. One WCM noted in an internal NWS E-mail
    that NWS “...will alienate the broadcast media at a time when we have the opportunity to
    communicate our warnings better than we ever have before. Too many warnings and we get
    turned off or ignored.” One NWS employee told us that some stations are turning off EAS
    because too many warnings are being issued. While another employee disagreed that the
    EAS was being turned off, the two employees agreed that too many warnings is a problem in
    the northern and southern plains states, where most warnings are issued.

    Second, the increase in warnings affects WFO resources needed for verification, requiring
    additional staff time to collect and submit event information. Although our survey confirmed
    that forecasters spend thousands of hours on verification, the total number of hours is equal
    to only about 20 full-time positions. While this is a relatively small number, the impact of
    verification on WFO resources can be significant for several reasons: time spent on
    verification varies from office to office, from a few to hundreds of hours; verification time is
    compressed into a four- to six-month severe weather season; and verification demands occur
    during and after storms, when offices are at their busiest.

    Third, although there is no solid evidence of this, NWS personnel contend that in some parts
    of the country, the public has become complacent to warnings because they are so often
    issued for non-severe storms. They also stated that these marginal hail events (.75-inch
    hailstones) are not a threat to most of the population. Figure 10, on the following page,
    shows how the number of marginal hail events began increasing rapidly in the 1980s to the
    point that this group is now reported more than any other event.18 The data suggests that a
    change in the marginal hail climatology has occurred; however, the increase in 1980
    coincided with NWS beginning its severe storm verification program.

    Recommendations of DACFO

    The Advisory Committee’s concerns that the thresholds are too low for severe thunderstorms
    first appeared in its 1988 annual report. In 1994, 1995, and 1996, DACFO recommended
    changing the criteria for severe thunderstorms, reporting that: “Criteria for a severe
    thunderstorm are too low for some parts of the country. In Kansas, 3/4 inch hail and 50 knot




       18
         Severe Local Storm Climatology 1955-1995: Analysis of Reporting Trends and
Implications for NWS Operations, December 1996.

                                                31
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                                 IPE-9255



                                                Figure 10




    winds are so common that they are not perceived as significant events by the public. As a
    result, many warnings that technically verify may effectively be ‘false alarms,’ and credibility
    of the entire warning program suffers.”19

    Another DACFO recommendation is to allow regional discretion in defining severe
    thunderstorm criteria for local climatology. This recommendation has some credibility for
    the southern and northern plains states, where there are a large number of hail reports, over
    half of them larger than the 3/4-inch threshold (see Figure 11).



       19
         Twenty Fifth DACFO Final Report, page 13, July 1997.

                                                 32
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

                                        Figure 11                                One reason for
                                                                                 not implementing
                             Hail Size by Geographic Region                      a regional
                     25000                                                       program involves
                    Number of Reports
                     20000
                                                                                 the problems with
                                                                                 visitors being
                     15000
                                                                                 unfamiliar with
                     10000
                                                                                 regional
                      5000                                                       thresholds. For
                         0                                                       example, a person
                               NE    SE     MW S Plains N Plains West
                                                                                 from the
                           3/4" hail     3/4" to 2" hail 2+" hail
                                                                                 Northeast, driving
                                                                                 through the
                                                                                 Southern plains
                                                                                 states,
    might not be aware that the hail threshold in Texas is 1.5 inches. While this argument has
    some merit, NWS has experience with the application of different thresholds across the
    country. Snow thresholds in the winter storm warning program vary by state. While we are
    not advocating WFO or even state-by-state thresholds, we believe further exploration of a
    macro-level breakdown of warning thresholds, based on geographical weather patterns, is
    justified.

    Another DACFO recommendation, and one discussed by NWS for more than a decade, is to
    have a multi-tiered Severe Weather Warning system. This would consist of having a separate
    category of enhanced public warnings for extremely severe events. The Air Force Global
    Warning Center, responsible for issuing weather warnings to pilots at Air Force bases around
    the world, uses such a system. The Air Force has broken its convective weather warning
    system into four categories: tornado, severe thunderstorm, moderate thunderstorm, and
    general thunderstorm. The Air Force threshold for the severe thunderstorms category is
    three-quarter inch hail. The benefit of a NWS multi-tiered system is that it gives the public
    more refined information for better decision-making. A proponent of the multi-tiered system
    gave the following example. A car dealership, when alerted that a thunderstorm is
    approaching, has to decide whether to move all cars inside, move some inside and others
    under the tarmac, or to leave them outside. Since hail size is directly related to the potential
    amount of car damage, the more specific the information, the better the decision-making.

    NWS has not wanted to confront these issues until its modernization and associated
    restructuring near completion. However, potential media and EAS problems and our interest
    in this issue have compelled NWS to establish a working group in June 1997 to recommend



                                                    33
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

    changes to severe thunderstorm warnings. The working group consists of NWS field and
    regional personnel, and scientific, academic, electronic media, insurance company, and
    engineering personnel. It is expected to issue a report on its findings in October 1997.

    Conclusions

    Although we support NWS’s current working group, we recommend that the agency expand
    it to include more external experts. Making any change to the severe thunderstorm
    thresholds is likely to be controversial. We believe a panel consisting of university and other
    scientists, experts in the field of aviation, emergency managers, and other users should be
    convened to address the following options:

       ! The appropriateness of and problems associated with the current national warning
         thresholds.
       ! The pros and cons of a geographically based regional warning system with differing
         thresholds.
       ! The pros and cons of a multi-tiered severe weather warning system to facilitate
         alerting the public.

    We are not recommending any of the above changes. Rather, we are recommending that
    NWS thoroughly review and, as appropriate, operationally test changes to the current
    warning criteria. The various options - changing the nationwide threshold, moving to a
    regional threshold system, or implementing a multi-tiered warning system - should be
    operationally tested in a number of states. NWS should document the impacts of the
    proposed changes on the various groups that would be most affected by different threshold
    levels. NWS’s working group should also evaluate the effects of using larger wind events for
    verification purposes and developing alternative verification methods or measures.

                                        --------------------

    NWS believes that its review team consisted of a broad cross section of the “hazards
    community” suggesting that this was sufficient. We believe more should be done since 17 of
    the 24 team members were NOAA employees. NOAA acknowledged that the composition
    of the four subteams was narrowly defined such that not every team reviewed all possible
    options. In fact, it is our understanding that only the science and operations team (seven
    NWS employees) reviewed and subsequently rejected the geographically based regional
    warning system option. At a minimum, this creates an appearance of bias. We therefore
    encourage NOAA to see what it can do to seek input from external sources before it rejects
    or proposes changes in the warning thresholds. In addition, we continue to believe that NWS
    should operationally test changes to the current warning criteria.


                                                34
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                                   IPE-9255

V. NWS Needs to Strengthen its Headquarters and Regional Office Oversight Roles
   and Responsibilities

    A. OM has not provided the necessary leadership and oversight for national,
       regional, and local verification issues and efforts

    The Office of Meteorology, which took over responsibility for the National Verification Plan
    from the National Severe Storms Forecast Center in January 1996, is responsible for
    overseeing and leading the program through guidance, training, and program evaluation. The
    Verification Program began in 1980, when NWS established a National Verification Task
    Team to prepare an NVP to meet NWS national, regional, and local verification needs. With
    eight major forecast programs,20 NWS lacked a comprehensive national program to address
    verification weaknesses, such as poor data input procedures, inadequate quality control,
    antiquated data processing methods, and the lack of timely feedback at the local level.

    In June 1982, the team completed its work by issuing the National Verification Plan. As a
    result, in 1983 the National Verification Committee was established to implement the plan,
    advise management on the uses of verification statistics, and monitor field responses to the
    verification programs. The committee met semiannually in 1983 and 1984 and then annually
    through 1989. The committee chairman tried to hold meetings in 1990 and 1991, but
    funding was not available. As a result, the committee never fully implemented the national
    plan, leaving a considerable gap in NWS’s ability to provide national oversight for
    verification efforts and to measure the program’s effectiveness.

    Some NWS personnel told us that a national group, like the old National Verification
    Committee, should be reestablished, emphasizing that user services are more important than
    obtaining verification statistics. Specifically, the group could evaluate all OM programs,
    including customer service, warnings, communications, verification, and regional practices.
    Currently, NWS uses ad-hoc groups to evaluate services. OM’s National Verification
    Manager has focused on compiling and disseminating national verification statistics at the
    expense of national, regional, and local verification policies and oversight. With only one
    full-time contract employee, the manager has had little time for key verification issues, or to
    provide overall leadership and oversight. However, he plans to revise the verification
    chapters in NWS’s Operations Manual to include new verification techniques and prepare a
    new verification plan updating the requirements and goals of each verification program area.




       20
           Agriculture, air pollution, aviation, fire weather, hydrology, marine, public, and severe
weather.

                                                  35
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                                  IPE-9255

    We agree that NWS should reestablish a national committee, revise its Operations Manual,
    and prepare a revised verification plan. More importantly, NWS needs to strengthen the role
    of its National Verification Manager and OM authority and responsibility to oversee field
    verification efforts. Specifically, NWS needs to ensure that its National Verification Manager
    proactively reviews, with the national committee, national verification issues, such as warning
    criteria and verification techniques. The manager should ensure that verification “best
    practices” are shared with and used by regional and local offices. For example, the manager
    should evaluate how well verification data is obtained and reviewed for quality control.

                                         --------------------

    NWS agrees that a more formal process should be established for general oversight on the
    development of new programs and specific verification issues. However, NWS believes that
    it is not cost effective to reestablish meetings of a National Verification Committee with the
    same charter as the original charter. NWS plans for its existing working groups to handle
    issues similar to those addressed by the NVC, and will assign one person from each region to
    represent that region’s strategic vision on verification. These individuals will meet or hold
    conferences with the national verification program manager at regular intervals to discuss
    general verification issues and follow-up on specific action items. By assigning regional
    personnel to meet with the national manager, NWS will establish a de facto national
    committee that meets the intent of our recommendation.

    B.    The regional office role in verification needs to be expanded

    The NWS regional offices’ role in verification is generally very limited, except for major
    events. We determined that the regional Warning Coordination Meteorologists review
    verification statistics for office trends and certain LSRs for event information. The regional
    WCMs stated that overseeing WFO operations was their role, but that due to staffing
    limitations, they are unable to authenticate thousands of individual events reported by the
    WFOs. However, some NWS personnel felt that regional personnel were out of touch with
    WFO operations and real-time weather situations. After our discussions with the regional
    WCMs, they suggested that they could improve quality control of verification statistics, and
    they could increase local, state, and private sector alliances to provide additional verification
    information.

    Regional Office Quality Control Opportunities

    NWS’s Operations Manual, Chapter C-72, states that the regional offices (ROs) should
    review verification output and assist their field offices in using it to improve field



                                                 36
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

    performance.21 The ROs also are supposed to help WFOs interpret policy and procedures for
    data collection. WFO personnel stated that because OM provides monthly statistics to their
    regional headquarters, regional personnel just want to “graph scores and not fix the system’s
    flaws.” More importantly, they felt that because the regional WCMs were usually trained
    and worked in the pre-MAR environment, they lack insight into current WFO operations,
    particularly in severe weather situations.

    To enhance regional WCM knowledge of WFO operations, WFO personnel suggested that
    regional WCMs work in a WFO for one week every two to three months. In prior years, the
    regional WCMs visited WFOs to gain insight into WFO operations. However, limited
    funding has seriously reduced these visits. Rather than work two or three WFO shifts each
    year, which the regional WCMs believe is counterproductive, the regional WCMs believe
    that visiting their WFOs and observing new initiatives is more efficient. Without these visits,
    they agree that they could lose touch with WFO operations. We believe that the regional
    WCMs and WFOs can significantly improve their communication through direct office visits.
    Although limited funding for office visits can be a problem, NWS should provide funding for
    some regional WCM visits to WFOs in Fiscal Year 1998.

    After discussions with regional WCMs, local WCMs, and forecasters, we believe that the
    ROs should conduct random audits, or “spot checks,” of event and warning information to
    help improve data accuracy and reliability. The ROs should also establish partnerships to
    randomly send event information to an outside entity (e.g., emergency managers or local
    university meteorology departments) to evaluate the adequacy and validity of that data.

                                        --------------------

    Although NWS states that a uniform process, for office reviews, can be established across
    the country, NWS does not mention whether or when such a process will be established.
    NWS needs to clarify its answer in its Action Plan to our office.

    Regional Office Partnerships

    The WCM Handbook requires WCMs and other WFO personnel to contact utility
    companies, 911 centers, state police, and insurance companies for assistance with event
    collection information.22 The ROs could help their WFOs by establishing alternative sources


       21
        "National Watch/Warning Verification Program,” Weather Service Operations
Manual,” Chapter C-72, April 21, 1987.
       22
         Warning Coordination Meteorologist: Job Aid, Revised August 1996.

                                                37
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

    of event information, especially for damage values which are required for the storm data
    reports and which take a substantial amount of time to obtain, are generally of poor quality,
    and have little to do with the verification of severe weather. More reliable data could be
    obtained by ROs coordinating information from common sources, such as insurance
    companies.

    NWS’s Operations Manual Chapter C-49 outlines recommended contacts for fostering
    partnerships.23 NWS regional personnel stated that C-49 is flexible enough to cover many
    partnership possibilities, without forcing any one of them. For example, coastal WFOs work
    with the U.S. Coast Guard and use Coast Guard damage reports, whereas many inland
    WFOs may be able to develop partnerships with the Army Corps of Engineers along major
    waterways to obtain damage estimates. There is a wide range of possibilities. Regional
    personnel stated that they can try to foster working relationships with telephone, power, or
    insurance companies, and most will work with them because it is mutually beneficial.
    However, they cannot demand such cooperation. In addition, some police agencies and
    nuclear power companies probably would want to ensure that sensitive personal and
    customer information would not be released with nonsensitive information. We believe that
    the ROs should develop procedures to gather information from utility companies, 911
    emergency centers, and insurance companies so that hail and wind damage information is
    routinely shared with NWS.

                                        --------------------

    NWS stated that its regional and national headquarters have provided lists of potential
    sources or data for WCM use. However, NWS does not state whether and when procedures
    to gather such information will be developed. NWS needs to clarify its answer in its Action
    Plan to our office.




       23
        "Warning Coordination and Hazard Awareness Program,” Weather Service Operations
Manual, Chapter C-49, August 7, 1991.

                                                38
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

VI. NHC Should Expand its Verification Efforts and Test its Emergency Backup
    Preparedness

    Hurricanes, which strike the United States about two to three times every summer, are
    greater in size and duration than severe thunderstorms and tornadoes. Hurricanes can persist
    for many days and affect thousands of lives and billions of dollars of property. The National
    Hurricane Center issues advisories, watches, and warnings for hurricanes over the Atlantic
    Ocean, the Eastern Pacific Ocean, the Caribbean Sea, and the Gulf of Mexico. After
    hurricane season, which usually runs from May to November, NHC conducts an annual
    post-seasonal review and prepares an annual hurricane report for issuance to interested
    parties. Among the information that NHC compiles and distributes is the verification of each
    hurricane’s track and intensity. NHC’s comparison of hurricane track and intensity forecasts
    and the actual track analysis has been done for 25 years. However, we believe that some
    improvements can be made in the hurricane verification process.

    A. Hurricane verification should include hurricane warning area (“margins of
       error”) and wind radii

    Currently, the NHC documents the “end points” of a hurricane warning area, the actual
    hurricane track, and wind intensity. NHC does not verify the accuracy of the forecast or
    compare it to the actual hurricane or the wind radii of each hurricane. NHC would like to
    verify more forecasts, but ground observations are limited. For example, forecasting
    intensity remains the forecaster’s greatest problem because of limited observations from ships
    and other equipment, and because understanding the physical process of changing winds is
    very difficult. To address these limitations, two of NHC’s key performance goals for 2000
    are to (1) reduce the hurricane warning areas and (2) begin verifying wind radii analyses and
    other marine and aviation products.24 When combined with better dissemination, substantial
    savings to the public will be gained as less damage will be sustained and unnecessary
    preparation and evacuation costs will be avoided.




       24
         Draft 1997 Strategic Plan for the Tropical Prediction Center, National Hurricane
Center, February 1997.

                                               39
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                               IPE-9255

    NHC Warning Areas

    NOAA’s Strategic Plan calls for a 10-percent reduction in hurricane warning-area size and a
    comparable 10-percent savings in damages avoided and unnecessary preparation costs.25 In
    order to reduce hurricane warning areas, NHC needs to know the portion of each warning
    area that did not receive hurricane force winds. However, NHC does not systematically
    document and verify the hurricane warning areas.

    Although NHC usually issues hurricane warnings 24 hours in advance for about 300 nautical
    miles, the average hurricane covers only about 100 nautical miles. Since NHC’s average
    forecast error for 24 hours is about 100 nautical miles, NHC adds an additional 100 miles to
    the north and south of the hurricane track for a 300 nautical mile average warning area.
    NHC would like to reduce its warning areas but does not want to risk hurricanes striking
    unwarned people.

    NHC personnel stated that there has never been a hurricane where NHC has not issued a
    warning. NHC argues that a false alarm area is inherent in issuing a warning because the
    hurricane is going to strike within the warned area, but not the entire area. However, such
    over-warning not only results in a loss of credibility, but more importantly, is very costly.
    NOAA estimates that the cost to the public of posting hurricane warnings on the eastern
    seaboard for each hurricane is about $200 million. This estimate includes the cost of
    boarding up homes, closing down businesses and manufacturing plants, and evacuating oil
    rigs. It does not include economic losses due to disruption of commercial activities, such as
    lost sales and canceled reservations. Conceptually, by reducing the warned area by 10
    percent - the NOAA goal - the public could save at least $20 million per storm.

    We believe that NHC should systematically verify and document the portion of each warning
    area that did and did not receive hurricane force winds. NHC’s Director agrees, and has
    directed NHC’s verification specialist to analyze the data from prior hurricanes to begin
    understanding the time involved and the data needed. More importantly, this will provide an
    initial baseline, or average size, of over-warned areas. Although NHC’s verification
    specialist believed that performing this analysis could be time consuming, he thought that it
    could be done with “a small allocation of funds to support a student appointment to help with
    the creation of the required data bases.”




       25
        The 1995-2000 NOAA Strategic Plan, National Oceanic and Atmospheric
Administration, July 15, 1993.

                                               40
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                                  IPE-9255

    NHC Wind Radii

    NHC stated that the average size of a hurricane warning area is consistent with the 100-mile
    average track error at 24 hours and the average hurricane size. The average size of a
    hurricane should comprise the wind radii, which is the horizontal distribution of winds
    extending out from a hurricane’s center. However, wind radii determination has been
    difficult because surface wind observations from ships, land stations, and buoys in the vicinity
    of tropical cyclones are very limited. Therefore, the initial values of the wind radii are usually
    estimated from satellite imagery, NWS radars, and U.S. Air Force (USAF) and NOAA
    aircraft observations, although these platforms do not measure surface winds directly. In
    addition to the lack of surface observations, NHC currently has no objective guidance models
    to predict the evolution of the tropical cyclone wind field. As a result, NHC usually
    determines the 12-, 24- and 36-hour radii forecasts by extrapolation and simple rules of
    thumb. Because of these uncertainties, the wind radii initial estimates and forecasts have
    never been verified.

    Because NHC has not quantitatively assessed and statistically verified wind radii, it cannot
    begin to evaluate how hurricanes intensify or weaken or how the warning margins of error
    can be reduced. NHC is required to estimate the radii of 34, 50, and 64 knot winds in four
    quadrants (northeast, southeast, southwest, and northwest) at the starting time of each
    forecast. These radii are important to people with boating and marine interests and ship
    operators who need to avoid areas with hurricane and gale force winds. NHC is also tasked
    with forecasting the wind radii at 12, 24, and 36 hour intervals. These radii are important to
    emergency managers who need to know when gale force winds will begin, and they also have
    an impact on the extent of the size of the watch and warning areas.

    To begin learning how to analyze wind radii, the Hurricane Research Division (HRD) of
    NOAA’s Atlantic Oceanographic and Meteorological Laboratory has recently collected a
    database of surface observations from the past 20-25 Atlantic land-falling storms. NHC is
    working with HRD to use this data to evaluate wind radii estimates, and results should be
    available for presentation at the 1998 Interdepartmental Hurricane Conference. NHC should
    continue to validate its wind radii for cases where surface data is available. HRD is planning
    a Hurricanes at Landfall Project, which should provide extensive verification data for a few
    cases. New instrumentation to measure surface winds is being added to the USAF Reserve
    aircraft. NHC should develop methods for using this new data source for wind radii
    forecasting and verification. In addition, the Geophysical Fluid Dynamics Laboratory
    (GFDL) hurricane model provides a forecast of the hurricane wind field, and wind radii could
    be determined from these predictions. NHC should begin to systematically verify the GFDL
    model wind radii forecasts.



                                                 41
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

    B. NHC’s backup plan should be tested annually

    It has been two years since NHC has tested its backup plan, which outlines the actions that
    will be taken if NHC processing and operations are interrupted by fire, power outages, water
    damage, or other events. NHC provides not only tropical cyclone forecasting, but aviation,
    marine, and satellite forecasting as well. In an emergency, the plan calls for NHC to shift its
    hurricane forecast responsibilities to the Hydrometeorological Prediction Center (HPC) in
    Camp Springs, Maryland; marine forecast responsibilities to the Marine Prediction Center in
    Camp Springs, Maryland; aviation forecast responsibilities to the Aviation Weather Center in
    Kansas City, Missouri; and satellite product responsibilities to NESDIS’s Synoptic Analysis
    Branch in Suitland, Maryland. Because of funding cuts, HPC has lost about 30 percent of its
    staff. As a result, NHC management questions whether HPC has the resources to act as a
    backup center. We also found that the backup plan for NHC’s marine, aviation, and satellite
    operations had not been recently tested, although the three designated backup centers have
    NHC’s backup product formats and software available for immediate use.

    NHC is concerned about operations interruptions from a tropical storm or hurricane, fire and
    water damage, a power outage, and even a computer virus. For example, in April 1997, the
    Storm Prediction Center experienced an electrical outage when construction equipment
    severed power lines. SPC stated that this outage did not affect its services because SPC
    exercised its back-up arrangement with the USAF Global Weather Center. However,
    although the outage was short, a longer outage could severely hamper a center’s operations.

    Federal Information Processing Standards Publication 87 states that unless backup plans are
    continually reviewed and tested, they may fail when needed. Personnel should test backup
    plans at the designated backup site by making copies of all needed data and other
    information. The test should demonstrate that the backup site remains unharmed in a
    simulated catastrophe or disruption of service. A backup plan for any data processing
    activity, regardless of its operation, should address three areas:

       ! Emergency response procedures, to cover the appropriate response to a disastrous
         event.

       ! Backup operations procedures, to ensure that essential data processing operational
         tasks can be conducted after disruption to the primary data facility.

       ! Recovery action procedures, to facilitate the rapid restoration of a data processing
         facility following physical destruction, major damage, or loss of data.




                                                42
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255

    In addition to Publication 87, both the NWS Operations Manual Chapter 4126 and the
    National Hurricane Operations Plan27 dictate the transfer of hurricane warning
    responsibilities. Chapter 41 states that maintaining a successful backup program requires, as
    a minimum, annual testing of the plan. During our visit, NHC provided a draft copy of its
    backup plan, which stated that backup procedures will be tested before each hurricane
    season.

    NHC management stated that drafting and testing a backup plan had been a low priority. In
    June 1997, an HPC staff member received training on NHC’s Automated Tropical Cyclone
    Forecasting System (ATCFS), which runs models, displays the “working best track,” and
    graphically outlines NHC products. He will prepare a manual so that HPC staff can run the
    ATCFS at HPC. HPC has a dedicated computer and is getting the latest version of the
    system software, and will have a dedicated terminal or workstation for displaying satellite
    imagery/gridded data. HPC personnel stated that during the next off-season, messages,
    models, and data could be tested. They did not want to disrupt normal hurricane operations
    now. We agree. NHC should, however, test its backup plan at HPC during the next
    off-season to determine whether HPC is a viable backup center. If not, another backup
    center should be selected immediately or appropriate action should be taken to make HPC a
    viable backup center.

                                        --------------------

    NHC agreed to systematically verify the portion of each warning area that did and did not
    receive hurricane force winds. NHC also stated that it is testing various methods for
    verifying wind radii forecasts. NHC also will test its backup plan during the 1998 preseason.




       26
           "Tropical Cyclone Program,” Chapter, C-41, Weather Service Operations Manual, May
1, 1996.
       27
        National Hurricane Operations Plan, Office of the Federal Coordinator for
Meteorological Services and Supporting Research, NOAA, May 1996.

                                                43
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

RECOMMENDATIONS

We recommend that the Acting Assistant Administrator for Weather Services direct that:

1.   NWS improve verification quality control by developing NWS guidelines at the national
     level and implementing them throughout the network. Specifically, NWS should reestablish
     its National Verification Committee and, in conjunction with OM, WFOs, and the regional
     offices, implement a standardized review process to ensure data integrity that will include:

        ! recording the source of event information.
        ! distinguishing between measured and estimated wind gusts.
        ! sending verification data to external sources for review.
        ! spot checking monthly data and “signing off” as completed before sending it to OM.
        ! comparing the timing of storm reports with radar imagery.
        ! randomly reviewing reports from nearby counties for time continuity.
        ! randomly reviewing changes made to monthly storm data reports.
        ! using only measured hail diameters - not estimates - to numerically verify warnings.
        ! adding the name of the forecaster who collects event information to the storm data
          event database.
        ! developing software to prevent the same forecaster from issuing and verifying a
          warning.
        ! instituting third party reviews or verification checks when the same person has issued
          and verified a warning.

2.   NWS determine the status of LSR software that is being developed at the
     Baltimore/Washington D.C. WFO and determine its potential use by all WFOs.

3.   NWS describe the means used to “verify and validate” its verification measures and eliminate
     the phrase “Quality control procedures are followed to ensure the highest possible reliability
     of the gathered data” from its 1998 Annual Plan.

4.   NWS provide WCMs with alternative training mechanisms that promote data integrity,
     including CD-ROMs, videos, and discussions at annual WCM meetings.

5.   WFOs continue to emphasize the importance of data accuracy in spotter training. This
     should include helping WFOs purchase or obtain inexpensive calipers or rulers to accurately
     measure hail size.




                                                44
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

6.   OM implement specific automated tests of national verification information, including year,
     month, day, time, WFO, event, latitude and longitude, deaths, injuries, damage, and warning
     issue time.

7.   OM document changes made to monthly storm data reports to ensure that changes are
     authorized.

8.   OM create a new field in the event database and direct that WFOs use it to identify the
     source of information for their storm data.

9.   The regional offices require that PC-LOGIT is to be used by all WFOs until an integrated
     system is developed.

10. NWS implement an integrated, real-time verification and data collection system and database
    to accept LSRs, provide the foundation for storm data reports, and provide timely initial or
    first-cut feedback to forecasters. To eliminate the redundant input of data, NWS should
    develop software for inputting LSRs that is compatible with its storm data software.

11. NWS reduce its backlog of the monthly Storm Data publication and ensure that the
    publication is issued within 90 days after each month. NWS also needs to revise its
    guidelines (Chapter C-42), documenting a “cutoff date” for WFO submission of data. After
    the cutoff date, OM should send the reports to NCDC, with outstanding reports labeled “not
    received,” with sanctions for unreasonably late submissions.

12. NWS expand its review of the severe thunderstorm warning criteria to include more external
    input. The various options - such as changing the nationwide threshold, moving to a regional
    threshold system, or implementing a multi-tier warning system - should be operationally
    tested in a number of states. NWS should document the impacts of the proposed changes on
    the various groups that would be most affected by different threshold levels. NWS should
    consider and evaluate the effects of using larger wind events for verification purposes and
    developing alternative verification methods or measures.

13. NWS reestablish its National Verification Committee, revise Chapters 72 and 73 of its
    Operations Manual, and prepare a revised verification plan. More importantly, NWS needs
    to strengthen the role of its National Verification Director and OM authority and
    responsibility to oversee field verification efforts. Specifically, OM’s director should review
    national verification issues, such as warning criteria and verification techniques, and ensure
    that verification “best practices,” such as WFOs using recorders attached to telephone lines
    or pink-colored log-in sheets to record the original source and time of event information, are
    disseminated and used by regional and local offices.


                                                45
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                                 IPE-9255

14. The regional offices conduct random reviews, or “spot checks,” of event data and warning
    information. The offices also should establish partnerships to randomly send event
    information to outside entities to evaluate its adequacy and validity. In addition, the regional
    offices and NWS headquarters should develop procedures to gather information from utility
    companies, 911 emergency centers, and insurance companies so that hail and wind damage
    information is routinely shared among offices. Although limited funding for office visits can
    be a problem, NWS should provide funding for some regional WCM visits to WFOs in Fiscal
    Year 1998.

15. NHC systematically verify (a) the portion of each warning area that did and did not receive
    hurricane force winds and (b) its Geophysical Fluid Dynamics Laboratory model (wind radii)
    forecasts.

16. NHC test its backup plan at HPC during the next off season to determine whether HPC is a
    viable backup center. If not, another backup center should be selected immediately or
    activities taken to make HPC viable.




                                                 46
U.S. Department of Commerce                                                       Final Report
Office of Inspector General                                                          IPE-9255

    Appendix A: OIG Survey Questionnaire for Warning Coordination Meteorologists

                                Questions & Summary Responses

       (1)     What region are you in?

               19       Eastern Region
               27       Southern Region
               33       Central Region
               22       Western Region
                3       Alaska Region
                1       Pacific Region

       (2)     If you are someone other than the WCM, what is your position?

               No summary compiled.

       (3)     How many years have you been doing severe weather verification at your
               current office?

               4.2 years average

       (4)     How many county-based warnings did your office issue in 1996 for
               thunderstorms, tornadoes, and flash floods? (numbers from OM)

               Region     WFO        Region
                        Average       Total
               Eastern      224       4,262
               Central      278       8,917
               Southern     384       9,985
               Western       74       1,564

       (5)     How many warnings did your office issue in 1996 for winter storms and high
               winds?

               No summary compiled.




                                              47
U.S. Department of Commerce                                                    Final Report
Office of Inspector General                                                       IPE-9255

       (6)     What is the population estimate for your county-warning area?

               Region                  WFO                 Region
                                      Average               Total
               Eastern                4,483,151        85,179,880
               Central                1,260,354        41,591,698
               Southern               2,095,227        48,190,233
               Western                1,882,495        33,884,916

       (7)     How many counties are in your county-warning area?

               26.8     Average
               16.2     Standard Deviation

       (8)     How many counties used to be in your county-warning area?

               17.7     Average
               15.3     Standard Deviation
               10       Not applicable (new office)
                1       Non-response

       (9)     What percentage of your county-warning area is rural?

               79.1     Average
               17.7     Standard Deviation
                6       Non-response

       (10a) Does your office use Local Storm Reports for verification purposes?

               Number of
               Responses       Answer
                    101        Yes
                       3       No
                       1       Non-Response




                                                  48
U.S. Department of Commerce                                                         Final Report
Office of Inspector General                                                            IPE-9255

       (10b) Does your office make calls to locate damage sites and verify time of
             occurrence?

               Number of
               Responses      Answer
                    105       Yes
                       0      No

       (10c) Does your office use a log-in sheet for incoming calls and calls initiated by
             your office?

               Number of
               Responses      Answer
                     99       Yes
                       6      No

       (10d) Does your office use newspaper clippings for verification purposes?

               Number of
               Responses      Answer
                    105       Yes
                       0      No

       (10e) Does your office use radar signatures for verification purposes?

               Number of
               Responses      Answer
                     24       Yes
                     81       No

       (11)    Does your office compute preliminary verification statistics for severe local
               storms, winter storms, river floods, etc.?

               Number of
               Responses      Answer
                     66       Yes
                     39       No




                                              49
U.S. Department of Commerce                                                       Final Report
Office of Inspector General                                                          IPE-9255



       (12)    How many new spotters were trained in 1996? How many retrained
               spotters? How many spotters are in your spotter network?

                                       New    Retrained     Total
               Average                  312         353     1192
               Std Dev                  456         488     1366
               Unknown                   11          20       10

       (13)    What percentage of your warnings are verified by people calling in, WFO
               calling out, other?

                                   Call in     Call out     Other
               Average                 37            48        15
               Std Dev                 19            22        18
               Min                       5            0         0
               Max                     90            95        90
               Mode                    20            60        10
               Non-response              6            6         6

       (14)    What are the major constraints to verifying more warnings?

               Number of Times
               Constraint was listed      Constraint
                       85                 Low Population, No one to report events
                       30                 Lack of Staff/Time
                         5                Events Occurring at Night
                         4                “Cultural” Differences of Spotters
                         4                Emergency Manager Issues
                         3                Quality of Reports from Spotters, EMs, etc.
                         2                Odd Shaped County Boundaries
                         2                Lack of Automated Weather Stations/Equipment
                         2                False Alarm Rate
                       10                 Other
                      147                 Total Number of Constraints




                                                50
U.S. Department of Commerce                                                         Final Report
Office of Inspector General                                                            IPE-9255




       (14a ) What percent of warnings are not verified by your office (due to the above
              constraints estimate)?

               Number of
               Responses      Answer
                      7       0% to 10%
                     23       11% to 20%
                     31       21% to 30%
                     13       31% to 40%
                      4       41% to 50%
                      4       51% to 60%
                      4       61% to 70%
                      8       71% to 80%
                      4       81% to 100%
                      7       Don't know/blank

       (15)    What type of severe event(s) are most difficult to verify? (multiple answers
               listed)

               Number of
               Responses      Answer
                     41       Thunderstorms
                     21       Hail
                     17       Tornados
                     16       Flash Floods
                     12       Winds
                     10       All marginal storms
                     10       All convective storms
                      6       Down burst winds
                      4       Damage reports
                      1       Winter storms
                    105       Total people responding




                                              51
U.S. Department of Commerce                                                     Final Report
Office of Inspector General                                                        IPE-9255




       (16)    Does the same meteorologist issue and verify the same warning?

             Number of
             Responses      Answer
                     14     Yes
                     37     No
                     54     Sometimes
       (16a) If so, do you think this is a problem and why?

               Number of
               Responses      Answer
                      5       Yes        (no narrative summary was compiled)
                     68       No
                     32       Non-response

       (16b) To what extent does the same meteorologist issue and verify the same
             warning in your office?

                              Number of
                Percent       Responses         Answer
                 31.4%               33         A. Little or no extent 0-10%
                 36.2%               38         B. Some extent 11-20%
                 23.8%               25         C. Moderate extent 21-40%
                  5.7%                6         D. Great extent 41-60%
                  2.9%                3         E. Very great extent 61-100%




                                               52
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                              IPE-9255




       (17)    What new initiatives has your office made in collecting events over the
               past 3 to 5 years? (144 new initiatives)

               Number of
               Responses      Answer
                     52       Spotter recruitment efforts
                     17       Expand or start HAM radio spotter network
                     13       Aggressive calling to obtain ground truth information
                     12       Increased coordination with Emergency Managers
                     11       Purchase and/or increase use of news-clipping services
                     11       Purchase and/or increase use of rural phone directories and lists
                     10       More and better spotter training
                      6       Internet solicitation of reports
                      3       Assignment of dedicated staff to gather ground truth information
                      3       More on-site surveys
                      3       Use of radar to establish location
                      3       Established a local verification database
                      7       Not applicable, new office
                      2       Non-response

       (18)    Is 60 days enough time to submit event reports to headquarters?

                           Number of
               Percent     Responses             Answer
                 79%              83             Yes
                 17%              18             No
                   4%              4             Depends

       (18a) If no, how many days are needed?

               Number of
               Responses      Answer
                   12         60 to 90 (including those that said 90)
                    7         90 to 120 (including those that said 120)
                    1         90 to 180




                                               53
U.S. Department of Commerce                                                      Final Report
Office of Inspector General                                                         IPE-9255



       (19)    How do you identify and verify events where warnings were not issued?

               Number of
               Responses      Answer
                     70       Spotter reports
                     59       Newspaper clippings
                     28       Emergency manager reports
                     26       Radio and TV
                     11       Same as warning
                     10       Call out to field for reports
                      9       Reports from sheriff and law personnel
                      8       Site surveys
                      3       Considered a missed event
                      2       Radar images
                      2       From damage reports
                      2       Other
                    230       Total reports

       (20)    Who in your office reviews the accuracy of data submitted for verification?

               Number of
               Responses      Answer
                     50       WCM
                     21       WCM & Focal Point
                     16       WCM & Others
                      6       Others
                      6       Focal Point
                      3       WCM & MIC
                      3       No one




                                               54
U.S. Department of Commerce                                                       Final Report
Office of Inspector General                                                          IPE-9255

       (21)    What specific steps as a WCM, do you perform to ensure that warning and
               event information is accurate? (Top 4 responses)

               Number of
               Responses      Answer
                     52       Conduct a review of the following: storm data reports,
                              warnings, log-in sheets
                     28       Make follow up phone calls to Emergency Managers, police
                              and fire departments, and spotters
                     13       Review radar data
                     12       Conduct on-site evaluations and surveys

       (22)    How do you review additions, deletions and revisions to monthly or yearly
               summary statistics?

               No summary was compiled.



       (23)    Does the false alarm rate or concerns about the FAR impact warning
               decision making?

               Number of
               Responses      Answer
                     39       Yes
                     65       No
                      1       Non-response




                                              55
U.S. Department of Commerce                                                        Final Report
Office of Inspector General                                                           IPE-9255

       (24)    What suggestions do you have to improve event collection for severe
               local storms? Winter storms?

               Number of
               Responses      Answer
                     71       Expand the spotter network
                     21       More staff, more time
                     17       Expand the HAM radio network
                     18       Continue fine tuning radar procedures
                     20       Increase the number of real time reports
                     16       More training of spotters
                     17       Automate reporting
                     16       Aggressive calling out
                      8       Misc suggestions
                      4       More automated observation equipment
                      2       1-800 phone line
                      2       Raise the storm warning criteria
                      8       None
                      9       Non-response

       (25)    What strengths or weaknesses of severe local storm verification
               training did you note in the WCM course?

               Number of
               Responses      Answer
                     16       Respondents listed a strength of the course, of those:
                     10       Tim Marshall's talk of damage assessment
                     35       Respondents listed a weaknesses of the course, of those:
                      8       Too much emphasis on East/Mid Plains states and not enough on
                              other regions
                      5       Not enough time spent on verification
                      5       Not enough time spent on filling out storm reports
                      3       Not enough information on spotters/event information gathering
                     54       Other Responses:
                     20       Respondent's could not remember
                     14       Replied "none" (no verification training or no comment)
                     20       Blank or N/A




                                               56
U.S. Department of Commerce                                                         Final Report
Office of Inspector General                                                            IPE-9255

       (25a) Is follow-up training needed? If so, what should it emphasize?

               Number of
               Responses      Answer
                     60       Total number of respondents that said Yes
                     28       Respondents that said No
                     17       Did not respond or said question was not applicable

               TYPES OF TRAINING DESIRED:
                   10     Event information gathering techniques
                     5    Software training
                     5    Type/severity of event
                     3    Regional specific training
                     3    Survey training

               METHODS OF TRAINING PREFERRED:
                    7   On-site training materials (CD-ROM, video, newsletter)
                    4   At the WCM conference (round table discussion, panel)

       (26)    How many hours per month are spent by the WCM verifying
               warnings and preparing storm data (do not include time spent
               preparing and sending local storm reports to the Storm Prediction
               Center)? Please give two numbers representing the busy and slow
               months.

               Answer combined with number 27.

       (27)    How many hours per month are spent by the remaining WFO staff on
               verification (do not include staff time spent preparing and sending
               local storm reports to the Storm Prediction Center)? Please give the
               total number for office, not including your own, for busy and slow
               months.

               Answer combined with number 26.

               WFO TOTAL (Questions 26 + 27)




                                               57
U.S. Department of Commerce                                                        Final Report
Office of Inspector General                                                           IPE-9255

               BUSY MONTH
                   55.5 Average hours per month

               SLOW MONTH
                   10.2 Average hours per month

       (28)    How many hours should you and the person(s) listed in #27 spend on
               verification?

               BUSY MONTH
                   26.3 Average hours per month
                   34.6 Standard Deviation

                       14     As much as needed
                        3     Too much
                        2     Don't know
                        8     Non-response

               SLOW MONTH
                    4.9 Average hours per month
                    6.9 Sample Standard Deviation
                      0 Minimum
                     40 Maximum

               OTHER VERBAL RESPONSES
                    13   As much as needed
                     1   Less
                     2   Don't know
                     9   Non-response

       (29)    Does your office benefit from the time spent on the verification process?

                                    Number of
                Percent             Responses                  Answer
                  77%                      81                  Yes
                  16%                      17                  Some
                    7%                      7                  No




                                              58
U.S. Department of Commerce                                                        Final Report
Office of Inspector General                                                           IPE-9255

       (30)    What other suggestions do you have for training and resources pertaining to
               the verification program?

               No summary compiled.

       (31)    How does the new Office of Meteorology verification process compare to the
               old NSSFC process?

                              Number of
                Percent       Responses            Answer
                  53%               55             Better
                  12%               13             Worse
                  16%               17             Same
                    3%               3             Both
                  16%               17             N/A = unknown, too soon to know, not
                                                   applicable

       (32)    For November 1996, how many warnings were missing from the weekly
               warning reports?

                   0.03       Average
                      0       Minimum
                      2       Maximum

       (33)    Could sampling “ground truth” effectively replace the current 100%
               verification methodology? Why or why not?

               Number of
               Responses      Answer
                      9       Yes
                     51       No
                      5       Maybe, in some cases
                      7       Don't Know
                     23       Don't Understand the question
                     10       Non-response




                                              59
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                             IPE-9255

       (34)    Could “radar signatures” replace the current 100% verification
               methodology? Why or why not?

               Number of
               Responses      Answer
                     6        Yes
                    86        No
                     6        Maybe, in some cases
                     0        Don't Know
                     3        Don't Understand the question
                     4        Non-response

       (35)    How do you use the information (statistics) derived from the severe local
               storms verification program? (multiple uses reported)

               Number of
               Responses      Answer
                     62       To critique performance and identify areas of improvement/training
                              needs
                      9       To monitor year-to-year trends
                      6       To provide information to media, emergency managers
                     11       Other
                     12       Do not use them
                      9       Blank or ambiguous response

       (36)    How should verification information or scores be used in evaluating
               forecaster or office performance?

               Forecaster Performance
                 84%        No
                 12%        Maybe
                   4%       Yes

               Office Performance
                 82%        No
                 10%        Maybe
                   8%       Yes




                                               60
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                                IPE-9255

       (37)    Should national verification be a higher or lower priority for the NWS?

               Number of
               Responses      Answer
                     17       Higher
                     32       Lower
                     53       Stay the Same
                      3       Non-response

       (38)    Please list at least 3 major strengths of the severe local storm verification
               process.

               A total of 240 strengths were listed. The following are the top five strengths:

               Number of
               Responses      Answer
                     42       Provides an evaluation of office effectiveness
                     41       Provides an organized summary of severe events/climatological
                              database
                      26      Improves working relationships with other agencies, county
                              officials, and spotters
                      24      Enhances local studies and algorithm refinement and assess
                              office training needs
                      21      Provides feedback to forecasters

       (39)    Please list at least 3 major weaknesses of the severe local storm verification
               process.

               A total of 227 weaknesses were listed. The following are the top four weaknesses:

               Number of
               Responses      Answer
                    34        Verification is a very time consuming process
                    33        Sparsely populated areas negatively affect verification scores
                    28        Verification statistics can be improperly used to evaluate and
                              compare offices
                     14       100% verification is impossible




                                                61
U.S. Department of Commerce                                                        Final Report
Office of Inspector General                                                           IPE-9255

       (40)    What would you change in the national verification process?

               Too many unique responses to summarize.

       (41)    What impact, if any, will the watch decentralization program have on
               verification efforts?

               Number of
               Responses      Answer
                     40       No impact
                     31       Workload & time constraint concerns
                     13       Unknown
                      6       Will lead to improved products
                      5       Other possible negative impacts
                     10       Did not respond
                    105       Total responses

       (42)    Please provide any other comments or suggestions that you have on
               improving the verification processes?

               No summary compiled.

WFO'S THAT REPORT ON HURRICANES:

       (43)    As it relates to verification, what suggestions do you have to improve event
               collection for hurricanes?

               Eleven full responses, thus no summary was compiled.

       (44)    What suggestions do you have for improving the hurricane verification
               process?

               Five full responses, thus no summary was compiled.




                                              62
U.S. Department of Commerce                                        Final Report
Office of Inspector General                                           IPE-9255

                              Appendix B: NWS Response to Report




                                              63
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              64
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              65
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              66
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              67
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              68
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              69
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              70
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              71
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              72
U.S. Department of Commerce        Final Report
Office of Inspector General           IPE-9255




                              73
